<html>
<title> - WORKING TOWARDS ENDING HOMELESSNESS: REAUTHORIZATION OF THE McKINNEY-VENTO HOMELESS ASSISTANCE ACT</title>
<body><pre>[Senate Hearing 110-919]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-919
 
                 WORKING TOWARDS ENDING HOMELESSNESS: 
     REAUTHORIZATION OF THE McKINNEY-VENTO HOMELESS ASSISTANCE ACT 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

    CONSOLIDATING HUD'S HOMELESSNESS PROGRAMS, INCREASE FUNDING FOR 
PREVENTION PROGRAMS, AND INCORPORATE LESSONS LEARNED ABOUT HOMELESSNESS 
              SINCE THE PASSAGE OF THE MCKINNEY-VENTO ACT


                               __________

                        THURSDAY, JUNE 21, 2007

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


      Available at: http: //www.access.gpo.gov /congress /senate /
                            senate05sh.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

50-321 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman
TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         WAYNE ALLARD, Colorado
EVAN BAYH, Indiana                   MICHAEL B. ENZI, Wyoming
THOMAS R. CARPER, Delaware           CHUCK HAGEL, Nebraska
ROBERT MENENDEZ, New Jersey          JIM BUNNING, Kentucky
DANIEL K. AKAKA, Hawaii              MIKE CRAPO, Idaho
SHERROD BROWN, Ohio                  JOHN E. SUNUNU, New Hampshire
ROBERT P. CASEY, Pennsylvania        ELIZABETH DOLE, North Carolina
JON TESTER, Montana                  MEL MARTINEZ, Florida

                      Shawn Maher, Staff Director
        William D. Duhnke, Republican Staff Director and Counsel
                  Jonathan Miller, Professional Staff
                    Jennifer Fogel-Bublick, Counsel
                   Kara Stein, Legislative Assistant
     Mark A. Calabria, Republican Senior Professional Staff Member
       Tewana D. Wilkerson, Republican Professional Staff Member
   Joseph R. Kolinski, Chief Clerk and Computer Systems Administrator
                         George Whittle, Editor



























                            C O N T E N T S

                              ----------                              

                        THURSDAY, JUNE 21, 2007

                                                                   Page

Opening statement of Senator Reed................................     1

Opening statements, comments, or prepared statements of:
    Senator Shelby...............................................     2
    Senator Akaka................................................     3
    Senator Martinez.............................................     4
    Senator Casey................................................     5
    Senator Sununu...............................................     6
    Senator Brown................................................     8
    Senator Crapo................................................     8
    Senator Allard...............................................     9

                               WITNESSES

Roy A. Bernardi, Deputy Secretary, Department of Housing and 
  Urban Development..............................................    11
    Prepared Statement...........................................    44
    Response to written questions of:
        Senator Crapo............................................   137
Adrian M. Fenty, Mayor, District of Columbia.....................    13
    Prepared Statement...........................................    50
Shirley Franklin, Mayor, City of Atlanta, Georgia................    14
    Prepared Statement...........................................    53
Lloyd S. Pendleton, Director, Homeless Task Force, Department of 
  Community and Culture, Division of Housing and Community 
  Development, State of Utah.....................................    28
    Prepared Statement...........................................    61
    Response to written questions of:
        Senator Dodd.............................................   138
Carol Gundlach, Executive Director, Alabama Coalition Against 
  Domestic Violence..............................................    30
    Prepared Statement...........................................    72
Moises Loza, Executive Director, Housing Assistance Council......    32
    Prepared Statement...........................................   102
Linda Glassman, Secretary, Board af Directors, National AIDS 
  Housing Coalition..............................................    34
    Prepared Statement...........................................   113
    Response to written questions of:
        Senator Dodd.............................................   138
Nan Roman, President, National Alliance To End Homelessness......    37
    Prepared Statement...........................................   121

              Additional Material Supplied for the Record

Letter from Homes In Partnership, Inc............................   139
Letter from the Kern County Homeless Collaborative...............   140
Letter from the Oswego Housing Development Council, Inc..........   141
Letter from Mike Lowry, former Member of Congress and former 
  Governor, State of Washington..................................   142
Letter from the National Alliance to End Homelessness............   143
Letter from the Connecticut Coalition to End Homelessness........   144
Letter from the Local Initiatives Support Corporation (LISC) and 
  the National Equity Fund (NEF).................................   145
Letter from Columbus House, Inc..................................   146
Letter from the Corporation for Supportive Housing in Connecticut   148
Letter from the Technical Assistance Collaborative...............   150
Letter from the National AIDS Housing Coalition, Inc.............   151
Letter from the National Housing Conference......................   152
Letter from Enterprise Community Partners, Inc...................   154
Letter from the Housing Assistance Council.......................   156
Letter from the Partnership for Strong Communities...............   157
Letter from multiple agencies in support of S. 1518, The 
  Community Partnership To End Homelessness Act..................   158
Letter from multiple rural housing organizations and advocates in 
  support of S. 1518, The Community Partnership To End 
  Homelessness Act...............................................   160
Letter from the National Alliance on Mental Illness (NAMI).......   162
Letter from the Consortium for Citizens with Disabilities........   163
Letter from the City and County of San Francisco Local Homeless 
  Coordinating Board.............................................   165
Letter from the Keuka Housing Council, Inc.......................   167


 WORKING TOWARDS ENDING HOMELESSNESS: REAUTHORIZATION OF THE McKINNEY-
                     VENTO HOMELESS ASSISTANCE ACT

                              ----------                              


                        THURSDAY, JUNE 21, 2007

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:04 a.m., in room SD-538, Dirksen 
Senate Office Building, Senator Jack Reed, presiding.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call the Committee hearing to order. 
Today we are beginning a hearing entitled ``Working Toward 
Ending Homelessness: Reauthorization of the McKinney-Vento 
Homeless Assistance Act.'' The purpose of this hearing is to 
determine how we can best reauthorize the housing assistance 
titles of this groundbreaking legislation.
    While Congress has continued to appropriate funding for 
housing assistance for those who are homeless, the McKinney-
Vento Act has not been comprehensively reauthorized since 1994. 
We want the hearing this morning to focus on lessons learned 
during the past decade regarding how to best prevent and end 
homelessness, as well as our witnesses' perspectives on S. 
1518, the Community Partnership to End Homelessness Act, a 
reauthorization bill that Senator Allard and I recently 
introduced.
    S. 1518 would reauthorize and amend the housing titles of 
the McKinney-Vento Homelessness Assistance Act of 1987. 
Specifically, our bill would realign the incentives behind the 
Department of Housing and Urban Development's Homeless 
Assistance Programs to better accomplish the goals of 
preventing and ending homelessness.
    We are particularly proud of the new prevention program and 
rural homelessness program in the bill. According to the 
Homelessness Research Institute at the National Alliance to End 
Homelessness, as many as 3.5 million Americans experience 
homelessness each year. On any one night, approximately 744,000 
men, women, and children are without homes. Another study by 
the National Coalition for Homeless Veterans estimated that 
nearly 200,000 veterans of the United States Armed Forces are 
homeless on any given night and about one-third of homeless men 
are veterans.
    The statistics regarding the number of children who 
experience homelessness are especially troubling. Each year it 
is estimated that at least 1.35 million children experience 
homelessness at some time. Over 40 percent of homeless children 
are under the age of 5. Whatever their age, we know that 
children who are homeless are in poorer health, have 
developmental delays, and suffer academically.
    In addition, we know that many of those who are homeless 
have a disability. According to the Homelessness Research 
Institute, about 23 percent of homeless people were found to be 
chronically homelessness, which under the current HUD 
definition means that they are homeless for long periods of 
time or homeless repeatedly and they have a disability. For 
many of these individuals and families, housing alone, without 
some attached services, may not be enough.
    Finally, as rents have soared and affordable housing units 
have disappeared from the market during the past several years, 
even more working Americans have been left unable to afford 
housing. According to the National Low Income Housing 
Coalition's most recent ``Out of Reach'' report, nowhere in the 
country can a minimum wage earner afford a one-bedroom home; 88 
percent of renters in cities live in areas where they cannot 
afford the fair market rent for a two-bedroom rental, even with 
two minimum wage jobs. Low-income renters who live paycheck to 
paycheck are in precarious circumstances and sometimes must 
make tough choices between paying rent and buying food, 
prescription drugs, or other necessities. If one unforeseen 
event occurs in their lives, they could end up homeless.
    So why should the Federal Government work to help prevent 
and end homelessness? Simply put, we cannot afford not to 
address this problem. Homelessness leads to untold costs, 
including expenses for emergency rooms, jails, shelters, foster 
care, detoxification, and emergency mental health treatment. It 
has been 20 years since the enactment of the Stewart B. 
McKinney Homeless Assistance Act, and we have learned a lot 
about the problem of homelessness since then. It is now time to 
take what we have learned during the past 20 years and put 
those best practices and proposals into action.
    There is a growing consensus on ways to help communities 
break the cycle of repeated and prolonged homelessness. 
Clearly, Senator Allard and I have been thinking about this a 
fair amount, and we look forward to hearing from our witnesses 
today about how we can best work together--work together--on 
reauthorizing the housing titles of the McKinney-Vento Homeless 
Assistance Act to focus on preventing and ending long-term 
homelessness.
    And before I introduce our witnesses, I would like to 
recognize the Ranking Member, Senator Shelby, for his comments. 
Senator.

             STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Senator Reed.
    Homelessness is an issue facing not only larger cities, but 
also small towns and rural communities across our country. The 
causes of homelessness are as diverse as the communities that 
it affects.
    The programs which reside in many of our Federal agencies 
have attempted to address the full spectrum of the problem. 
Some have succeeded, some have not. While this Committee's 
primary responsibility includes HUD's homeless assistance 
programs, we should keep in mind the interrelation between 
HUD's programs and those found at other agencies. Differing 
rules and program definitions often decrease the effectiveness 
of how Federal programs operate at the local level. This is an 
area on which I hope we will focus some today.
    I also want to thank all of today's witnesses for their 
willingness to appear before the Committee. In particular, I 
would like to thank someone from my State, Ms. Carol Gundlach, 
for her participation. Ms. Gundlach is the Executive Director 
of the Alabama Coalition Against Domestic Violence, a position 
in which she has served since 1990. She has also served as the 
State coordinator of the Alabama Coalition Against Hunger and 
as a member of the board of directors of the National Network 
to End Domestic Violence. She was instrumental in helping to 
bring many of Alabama's rural communities into HUD's continuum 
of care process.
    Ms. Gundlach, I am looking forward to you on the second 
panel testifying here today, and I welcome all the witnesses 
today, including the Deputy Secretary of HUD. But, Senator 
Reed, I think we are served well by the former Secretary of 
HUD, Senator Martinez, who knows a lot about this program, 
knows a lot about housing, having served as Secretary of HUD 
before he became a United States Senator.
    Senator Reed. Thank you, Senator Shelby. I concur. And I 
also want to particularly thank again Senator Allard and his 
staff who have worked so diligently on this issue. We have over 
the last several years shared responsibilities as Chairmen of 
the Subcommittee on Housing, and we have done it I think in a 
very cooperative way.
    Senator Shelby. Well, you and Senator Allard worked 
together when the Democrats were in power and when we were in 
power, vice versa, because you have a common goal.
    Senator Reed. Thank you, Mr. Chairman and now Ranking 
Member.
    Senator Akaka, if you have comments.

              STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. Yes, thank you. Thank you very much, Mr. 
Chairman and Ranking Member Shelby. I want to add my welcome to 
our witnesses today, and thank you, Mr. Chairman, for 
conducting this hearing on such an important issue.
    My home State of Hawaii is struggling to meet the housing 
needs of our residents. In the National Low Income Housing 
Coalition's ``Out of Reach 2006'' report, Hawaii ranked 51st in 
terms of housing affordability, and, Mayor Fenty, Hawaii was 
only above the District of Columbia in that report.
    Hawaii has the highest median monthly rental cost in the 
country. Having a job is not enough to ensure access to 
adequate housing. We have a tremendous shortage of affordable 
housing. It will take long-term, coordinated Federal, State, 
and county efforts to help increase access to affordable 
housing.
    In addition to limited access to affordable housing, there 
are numerous other causes of homelessness which can include 
suffering from a debilitating illness, substance abuse, or 
domestic violence.
    Mr. Chairman, any hearing on homelessness must include 
attention to the fact that there are far too many homeless 
veterans. Veterans comprise approximately one-third of all the 
homeless population. As Chairman of the Committee on Veterans' 
Affairs, I have introduced legislation, S. 1384, which would 
enhance and improve VA services for homeless veterans. This 
bill would modify the funding mechanisms for community-based 
services to homeless veterans, expand capacity of services for 
women veterans, and improve outreach to servicemembers and 
incarcerated veterans who are at risk of becoming homeless.
    I recognize that permanent supportive housing is one of the 
most effective ways to end homelessness, and I am working with 
my colleagues on both this Committee and on the Veterans' 
Affairs Committee to provide such housing.
    Today we will focus on what must be done to meet the 
immediate housing and social service needs of the homeless and 
preserve existing affordable housing units as we work toward 
reauthorizing the McKinney-Vento Homeless Assistance Act. This 
legislation will help provide much needed Federal resources and 
flexibility to local communities to create adequate housing for 
their residents.
    Mr. Chairman, I appreciate all of the work that you and 
your staff, and particularly Kara Stein, did in putting 
together this reauthorization legislation, and I want you to 
know that I am proud to cosponsor the legislation. I look 
forward to helping bring about enactment of this and other 
legislation needed to improve the lives of people without 
adequate housing.
    I want to again thank our witnesses for appearing today, 
and I look forward to their testimony. Thank you very much, Mr. 
Chairman.
    Senator Reed. Thank you, Senator Akaka, and I will 
recognize my colleagues in order of arrival.
    Senator Martinez.

               STATEMENT OF SENATOR MEL MARTINEZ

    Senator Martinez. Thank you very much, Mr. Chairman. I 
appreciate your comments earlier as well, and let me also 
welcome the witnesses here today, very especially my good 
friend Secretary Bernardi, who served with me at HUD and 
continues to so ably serve there. And I particularly also want 
to recognize my good friend Nan Roman who worked so tirelessly 
on this issue with me while I was at HUD, and I know continues 
to work there as well on all of these very important issues 
relating to homelessness.
    In the year 2002, President Bush made ending chronic 
homelessness within 10 years one of his top national 
objectives, and then I as HUD Secretary began to implement some 
new directions to try to fulfill that commitment. We needed to 
make Federal programs that help the homeless more responsive to 
the people they were designed to serve, and I committed the 
resources of the Department to this goal and took steps to 
reengage the Interagency Council on Homelessness. I am very 
proud of what the Interagency Council has accomplished in just 
5 years. Unprecedented Federal, State, and local collaborations 
have been created through the council's leadership, and this 
would not have occurred but for the dynamic leadership of 
Philip Mangano, who I was fortunate to entice to come and head 
this council, and his hard work and dedication have paid off. 
Under his direction, the council has forged a national 
partnership that includes 20 Federal agencies, 49 Governors, 
over 300 mayors and county executives. Countless private sector 
participants have also worked, and all are working together to 
accomplish the goals of preventing and ending homelessness.
    At the root of the problem is the issue of chronic 
homelessness, and that is what this program attempts to try to 
put an end to. I am pleased to convey that mayors and county 
executives across the country are able to report for the first 
time in 20 years that the number of individuals experiencing 
long-term homelessness on the streets or in shelters has, in 
fact, decreased. Miami, Florida, reports a decrease of 50 
percent; Portland, Oregon, 70 percent; San Francisco, 
California, 38 percent; Philadelphia, 50 percent; Dallas, 43 
percent. And the list of cities goes on and on.
    I would like to note that these accomplishments would not 
be possible without the strong commitment of Federal resources. 
We have experienced 7 years of record targeted Federal 
assistance in homelessness spending with a record of the 8th 
year request now before the Congress. Federal funding provides 
the vital leverage needed for State, local, and private sector 
investment. Many of these Federal dollars flow through the 
program we have come here to discuss today, the McKinney-Vento 
Homeless Assistance Act. The legislation was originally passed 
as a response to an emerging crisis in homelessness. Since 
then, many homeless services and governmental agencies have 
used McKinney-Vento as an important tool to provide housing and 
services to homeless people throughout our country.
    By all accounts, McKinney-Vento is working very well, but 
as with most things, there is always room for improvement. I 
would like to thank Senators Reed and Allard for introducing 
legislation that would reauthorize the housing titles of 
McKinney-Vento and improve the existing programs in order to 
make assistance more flexible, performance-based, and 
accountable. This legislation recognizes the importance of 
consolidating programs that represent a national consensus goal 
among advocates, providers, and government sectors. It also 
presents an opportunity to streamline the Federal role and 
administration while bringing a new set of expectations to the 
programs. Finally, the proposal emphasizes performance, 
innovation, prevention, and permanent housing solutions, as 
well as collaborative local planning in the public and private 
sector.
    I would like to welcome our witnesses here today. Thank you 
for taking time out of your schedules to join us and share your 
perspectives on this very important issue, and I look forward 
to your testimony.
    Thank you very much.
    Senator Reed. Thank you very much, Senator Martinez.
    Senator Casey.

              STATEMENT OF SENATOR ROBERT P. CASEY

    Senator Casey. Mr. Chairman, thank you very much, and 
thanks for bringing us together and for your work on this, 
along with Senator Allard.
    I do want to say first thank you to our witnesses today, 
Mayor Franklin and Mayor Fenty and Secretary Bernardi. We 
appreciate your presence here today, and we are honored by your 
appearance and the testimony that you will give.
    I just have a few comments about some of the numbers that 
we have heard already this morning, the numbers of Americans 
who are homeless who happen to be children and veterans, a 
tremendously disproportionate number for this country. And I 
think that is one of the things that brings us together today 
to try to work in a bipartisan way, not just to tinker with a 
piece of legislation or to reauthorize but to really make a 
commitment to ending homelessness. And we are so grateful for 
the work that has already gone on prior to this 
reauthorization.
    I had a chance just in the last couple of days--I guess it 
was 2 or 3 days ago now--to sit in my office with two young 
people, a young man and a young woman who were homeless, in 
Harrisburg, Pennsylvania, our capital. And they had fought 
through that and are a tremendous example of how people can 
overcome just awesome obstacles in their way, a tremendous 
testament to the human spirit. And the focus of these two 
individuals is higher education. They wanted to climb out of 
their own situation of homelessness to attend a community 
college and to get higher education. So I think it is that kind 
of commitment and that kind of dedication to moving beyond 
their own problems that we see in a lot of our families who 
happen to be homeless.
    In many ways, this issue and this legislation is a test of 
our common humanity. How we deal with this issue is a test for 
all of us in both parties, and I think there is a moral test 
that Hubert Humphrey set forth a long time ago about how we 
treat people in the dawn of life, the twilight of life, and in 
the shadows of life. And I think if he were here, he would 
include the homeless in the shadows of life.
    A couple of basic questions. Senator Martinez talked about 
chronic homelessness. We have got to deal with that definition 
and how we define that by statute. Post-traumatic stress 
disorder, whether or not that should be a qualifying 
disability. I think it should. That is something to talk about. 
And also research, to continue the research into homelessness 
so we can better inform this Committee and the Congress 
generally on this legislation.
    So, Mr. Chairman, I am grateful for the fact that we have 
this opportunity today, and I think it is a real test of all of 
us how we deal with this issue.
    Thank you very much.
    Senator Reed. Thank you, Senator Casey.
    Senator Sununu.

                STATEMENT OF SENATOR JOHN SUNUNU

    Senator Sununu. Is that me, Senator Reed?
    [Laughter.]
    Senator Reed. Say it fast.
    Senator Sununu. Thank you very much, and I very much 
appreciate the work that has been done on this legislation. I 
know a lot of it went on in the last session of Congress, and 
hopefully this is a bill that we can act on in a timely way in 
this session of Congress.
    Whenever I speak to people in New Hampshire about the issue 
of homelessness and the Federal support that, as Senator 
Martinez pointed out, is very important, they highlight three 
critical items, and that is, of course, the level of funds that 
Senator Martinez spoke about--and the level of funding has been 
good. We need to make sure that we have good authorization 
levels and that funding continues to be available. Second is 
timely access to the funds, and here we often deal with some of 
the inevitable bureaucracy that comes with any program of 
Federal oversight and administration. But I think the 
legislation recognizes that and tries to make sure that access 
to and availability of funds is handled in an effective and 
timely way. And then last, and maybe most important, 
flexibility, and that is because there are dramatic differences 
from community to community, State to State, city to city, 
regarding the fundamental needs in the homeless population, 
differences in numbers, whether there is chronic homelessness 
versus more transient family oriented homelessness or 
homelessness that might be created by a domestic situation. 
There may be greater or lesser prevalence of substance abuse, 
and in a similar fashion, there might be better or weaker 
substance abuse programs, which are critical to dealing with 
some of these issues. And then there are many other areas where 
there will be differences. All of that speaks to the need for 
flexibility.
    Senator Casey mentioned the issue of defining chronic 
homelessness. This is extremely important because if we define 
it too broadly, then we will weaken our ability to handle those 
individuals and families that are most in need of the 
assistance that comes through these programs. So I think all of 
these issues need to remain in front of us as the legislation 
moves forward so that we can try to improve any weaknesses that 
come to light.
    Three particular areas where I am most concerned is one 
with the targeting and consolidation that this bill recognizes 
is important. It takes four programs, consolidates them down--
it consolidates three of the four programs into one so we see a 
reduction in the numbers, but then it creates two more. And I 
think we need to look long and hard before we start creating 
additional programs provided that the funds will get and can 
get to the local level and be used flexibly to treat these very 
needy individuals. We should always be concerned when we are 
creating more programs to target the same population.
    Second is the criteria we use to judge applicants, the 
grant applicants. I know that the administration recommended 
that we establish six criteria for judging grants. I do not 
know if they are the right criteria or not, but I believe in 
the underlying bill we have 24 criteria. I am very concerned 
that as you expand that number of criteria, you slow down the 
process and you start to affect the access issue, the timely 
access to the funds. And I would certainly be interested to 
hear the mayors' perspective on the complexity of the criteria 
for the grants and the issue of consolidation and whether or 
not for someone that is in a leadership position at the local 
level those issues of flexibility and access are truly a 
concern.
    And then the third area has to do with shifting budgetary 
authority for the contract renewals to the Section 8 program, 
and that is something I would be interested to hear the 
Secretary's thoughts on, whether or not Section 8 is really the 
right place to handle those contract renewals. The Section 8 
program works effectively in many parts of the country, but it 
is a fundamentally different program. It has its own 
administrative and oversight challenges, and I am concerned 
that if we move that contracting into the Section 8, we might 
lose some of the focus and the effectiveness of the McKinney 
programs that I think everyone on the Committee recognizes as 
being very important to the homeless population.
    Thank you very much, Mr. Chairman, and I very much look 
forward to hearing our panel address those specific questions.
    Senator Reed. Thank you very much, Senator.
    Senator Brown.

               STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman. Thank you for your 
leadership on the reauthorization bill, and, Mayor Franklin and 
Mayor Fenty, thank you very much for your public service.
    About 5 years ago, I read a book by Barbara Ehrenreich 
called ``Nickel and Dimed,'' and in her book she pointed out 
that in the 2000 Presidential election, not once did the major 
party candidates mention the word ``housing'' that she could 
find. And I think that 2004 was not much different in the 
Presidential race. The candidates simply did not talk much 
about housing and the fundamental problem in this country of 
enough high-quality, good, available, accessible affordable 
housing for people. I know that is only part of the problem we 
address today. But I am hopeful that your presence today, the 
Deputy Secretary and two of the most prominent, best mayors in 
the country, can help to put this on the national agenda for 
this Senate and for the House and for the Presidential race.
    We are facing in part the difficult obstacle of we are 
still spending more than $2 billion a week on a war we should 
not be in, and there are some that want to extend tax cuts that 
have gone overwhelmingly to the wealthiest 1 percent of people 
in this country, making funding of all the kinds of things that 
you have advocated in Washington and in Atlanta and I advocate 
in Cleveland and in rural areas in southern Ohio that we need 
to do on health care and housing and education. But I am 
hopeful that your efforts and your continuing to speak out on 
issues of homelessness, on issues of housing, on issues of 
economic justice generally, will help to focus this country's 
attention as we move into a Presidential year on the issue of 
homelessness and housing for both parties and that it is 
actually debated instead of ignored.
    Thank you.
    Senator Reed. Thank you very much, Senator.
    Senator Crapo.

                STATEMENT OF SENATOR MIKE CRAPO

    Senator Crapo. Thank you very much, Mr. Chairman, and I 
want to join those who have commended you and Senator Allard 
and Senator Shelby for your previous work on the 
reauthorization of this legislation and on this critical issue.
    Most of the points of my colleagues are well taken, and I 
will not repeat them all. There is one issue that has not been 
addressed yet that I just wanted to highlight, and then I will 
focus on it a little more in the questions. But I come from a 
State that has a lot of rural areas--Idaho--and one of the 
concerns that we always have in rural areas with regard to any 
Federal program that has some kind of a formula for the 
distribution of funds is whether the formula is set up in a way 
that does not create a disproportionate allocation of funds to 
the urban areas of the country. The rural areas do not have 
necessarily the organizational capacity that a lot of the 
organizations that deal with homelessness in the urban areas 
do. And so they to a certain extent do not have the competitive 
edge in competing for these kinds of grant monies and dollars 
that urban areas might have.
    And so I am going to be interested to be sure that the 
performance-based application procedures in the legislation are 
going to be able to be implemented in a way that do not 
disproportionately move funding away from rural areas. I do not 
think that I am saying that the rural areas should get more 
than their share, but they certainly should get their share. 
And so that is an issue that I think we need to pay attention 
to.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Crapo.
    Let me recognize Senator Allard now and thank him 
personally for his help on this effort, but also his great 
leadership over many years with respect to the Housing 
Subcommittee. It has been a pleasure working with you, Wayne, 
and thank you very much.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Well, thank you, Acting Chairman Reed, and 
I also would like to thank Chairman Dodd for allowing us to 
hold this meeting, and certainly my Ranking Member, Senator 
Shelby, has been most helpful on this particular issue.
    It has been a team effort, and so I am particularly pleased 
that I could work with my friend from Rhode Island. And you and 
I have been working on this issue for some time, and I am 
pleased that we are moving forward.
    In 1987, Congress passed the Stewart B. McKinney Homeless 
Assistance Act, now known as the McKinney-Vento Homeless 
Assistance Act. The act was the first comprehensive law 
addressing the diverse needs of the homeless, including 
programs at the Department of Health and Human Services, the 
Department of Education, the Department of Labor, the 
Department of Agriculture, and the Department of Housing and 
Urban Development. Until enactment of this law, the problems 
confronted by the homeless were mainly addressed at the State 
and local level. The McKinney Act represented a consensus that 
had developed that a major Federal commitment was required in 
order to end homelessness.
    Currently, the Federal Government devotes significant 
resources to the homeless. For fiscal year 2007, HUD's homeless 
grant programs are funded at $1.44 billion. Yet, despite the 
enormous Federal resources directed toward homeless, the 
problem persists. We need to bring more accountability to 
homeless assistance, increasing funding for successful programs 
and initiatives, and replacing those that are ineffective.
    There seems to be consensus that the McKinney-Vento Act has 
been an important tool to help some of society's most 
vulnerable members and that the first step should be 
reauthorization of the act. There also seems to be a consensus 
that the second step should be consolidation of the existing 
programs.
    I originally introduced consolidation legislation in 2000, 
and then Senator Reed offered a proposal in 2002. HUD has also 
advocated for a consolidated program for several years now. 
While we differed in some of the details, including the funding 
distribution mechanism for a new program, these proposals 
offered consensus on the important starting point of 
consolidation.
    After extensive discussion, Senator Reed and I introduced 
the Community Partnership to End Homelessness Act. The bill 
will consolidate the existing programs to eliminate 
administrative burdens, multiple applications, and conflicting 
requirements. The streamlined approach will combine the 
efficiencies of a block grant with the accountability of a 
competitive system. Localities will submit applications 
outlining the priority projects for their area based on 
outcomes and results. I am especially supportive of approaches 
such as this one that focus on results rather than processes.
    The Community Partnership to End Homelessness Act also 
attempts to acknowledge that homelessness is not confined to 
urban areas, although the solution in rural areas will be 
different for rural areas. This is important in States like 
Colorado which have both urban and rural homelessness 
challenges.
    I would like to take a moment to acknowledge the work of 
Denver Mayor John Hickenlooper. Since he took office, Mayor 
Hickenlooper has been on the forefront of the effort to end 
homelessness in Denver. He has shown tremendous leadership and 
was instrumental in creating Denver's 10-year plan to end 
homelessness. So far the plan has shown very encouraging 
results. Mayor Hickenlooper's feedback was helpful in 
formulating a bill that would support and encourage such plans. 
Unfortunately, Mayor Hickenlooper was unable to be here today 
to express his support for the Community Partnership to End 
Homelessness Act.
    Senator Allard. He has been a good friend on this issue, 
and I look forward to working with him to end homelessness in 
Colorado and across the Nation.
    I appreciate this opportunity to hear from a variety of 
witnesses regarding consolidation of HUD's homelessness 
programs, including the Community Partnership to End 
Homelessness Act. I believe it is a thoughtful bill and was 
introduced after extensive consultation with many different 
groups. However, Senator Reed and I have both been clear that 
we are open to feedback and willing to continue to work with 
people in order to move the bill forward.
    I would like to thank all our witnesses for being here 
today. Your testimony will be helpful as we move to enact 
legislation to better prevent and end homelessness.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Allard.
    Before I introduce the witnesses, I would like to 
personally thank the staffs for their great work on this 
legislation, but particularly Kara Stein in my office and 
Tewana Wilkerson in Senator Allard's office. They have done a 
remarkable job, and if we pay attention to them, we will be all 
set.
    Secretary Bernardi, welcome. Roy Bernardi as Deputy 
Secretary of the Department of Housing and Urban Development is 
charged with managing HUD's day-to-day operations, a $32 
billion annual budget and the agency's 9,100 employees. As 
HUD's chief operating officer, Mr. Bernardi is responsible for 
improving ethics and accountability within HUD's programs and 
among its grants recipients. Mr. Bernardi formerly served as 
HUD's Assistant Secretary of Community Planning and 
Development, helping to develop viable communities by promoting 
integrated solutions to the challenges facing the Nation's 
cities. Prior to joining the Bush administration, Mr. Bernardi 
was the 51st mayor of the city of Syracuse, New York, and is 
still affectionately referred to as ``Mayor Bernardi'' in the 
Department. Welcome, Mayor Bernardi. Thank you.
    We have two other mayors here. We are delighted to welcome 
Mayor Adrian Fenty, the mayor of Washington, D.C. Mayor Fenty 
was elected as Washington's youngest ever mayor in November 
2006, carrying every precinct in the city in both the primary 
and the general elections. He assumed office with a resounding 
mandate. Mayor Fenty began his electoral career on the 
Washington, D.C., Council in 2001, winning a hard-fought 
battle. Councilman Fenty brought a new standard of constituent 
service to his ward, attracting new jobs and homes, fighting 
against nuisance properties that generated crime and decay, 
heightening police responsiveness, expanding community 
policing, and working to expand affordable housing. Mayor 
Fenty, welcome and thank you for your service.
    We are also joined by Mayor Shirley Franklin, the mayor of 
Atlanta, Georgia. Mayor Franklin was elected in 2001 and is the 
first female mayor of Atlanta and the first African American 
woman to serve as mayor of a major Southern city. Since her 
inauguration in 2002, Mayor Franklin has worked to build a 
best-in-class managed city by strengthening existing 
frameworks, implementing progressive changes, and making the 
tough decisions necessary to improve Atlanta. Her 
accomplishments include establishing a commission of city 
leaders to study the problem of homelessness in the city and 
creating the blueprint to end homelessness in Atlanta in 10 
years. The flagship project, the 24/7 Gateway Center, designed 
to serve 500 people a day with needed personnel and health 
services, opened in July 2005. Again, Mayor, thank you for 
joining us today.
    All of your statements will be made part of the record. I 
would ask you to take 5 minutes to make your presentations, and 
you can summarize or extemporize as you wish.
    Secretary Bernardi.

 STATEMENT OF ROY A. BERNARDI, DEPUTY SECRETARY, DEPARTMENT OF 
                 HOUSING AND URBAN DEVELOPMENT

    Mr. Bernardi. Thank you, Chairman Reed, Ranking Member 
Shelby, and Members of the Committee, a special hello to 
Secretary Martinez, my old boss.
    It is nice to be here with fellow mayors. It says 
``Secretary Bernardi'' here, but as you indicated, Mr. 
Chairman, people still refer to me as ``Mayor.''
    We are here today to do the reauthorization of the 
McKinney-Vento Act and the consolidation HUD's homeless 
programs--those are three programs: the Supportive Housing 
Program, the Continuum of Care, and the Single Room Occupancy--
into one consolidated program.
    Mr. Chairman, I want to give a special thanks to yourself 
and to Senator Allard and your staffs for the hard work that 
you have done over the years working with the staff at HUD in 
the Special Needs Assistance Program to bring this forth, 
acknowledging that your bill, S. 1518, represents a major step 
forward in the effort to consolidate the programs that I 
mentioned and to codify them in statute. It will provide 
greater flexibility, which in turn will enable improved 
performance and effectiveness of HUD's Homeless Assistance 
Grant Program, a program that I believe works very, very 
effectively.
    I am pleased to report the administration's homeless bill 
was transmitted to Congress yesterday, and the proposal, as I 
mentioned, was to consolidate the three programs into one. We 
believe very strongly that it will provide more flexibilities 
to the localities. Some of the Senators here mentioned rural 
homelessness. We believe it will provide more flexibility. It 
will transfer, if you will, the grantmaking responsibility to 
the local decisionmaking bodies, and I would think that the 
mayors to my left would be in approval of that. It also funds 
prevention of homelessness for the first time. As you know, 
those three programs plus the program that is a program that is 
done by formula, Special Needs Assistance Program, Emergency 
Shelter Grant, that is the only program that has prevention as 
part of it now. So putting prevention up to 32 percent of the 
resources, we are together with your bill and our bill on that, 
I think that would be terrific.
    Another big point Senator Sununu mentioned was the 
requirement, the time that it takes under the present system 
evaluating 6,000 applications with 450 continuums. Each one of 
those applications has to be evaluated, passed on, and then put 
into place, and it takes a year. If we consolidate these 
programs, we could move it all down to about 3 months.
    The bills are very complementary, and while there are some 
differences, the common ground, I think, is very, very strong.
    When it comes to matching requirements, we need to do a 
single match, and both bills indicate that. Right now the 
Supportive Housing Program has three different matches for 
three different areas. Our bills will say 25 percent will be 
the match for all of the programs.
    While they are similar, we do have some differences. It was 
mentioned the selection criteria. We have six selection 
criteria in place. We feel that that is sufficient. The Senate 
bill calls for significantly more criteria.
    Ending chronic homelessness, that has been a goal of this 
administration and of this Congress. The bill keeps that in 
place and the definition in place.
    It increases the efficiency in the award of competitive 
funds by consolidating existing programs into a single program 
application, where the Senate bill adds two additional 
programs--one for prevention and one for rural housing. We feel 
very strongly--and in the question-and-answer period I can tell 
you why we feel so strongly--that perhaps we do not need to do 
that. But I also want to say that obviously whatever you all 
decide, we can implement it.
    We want to maintain the source of funding for permanent 
housing renewals as the homeless assistance grants, whereas the 
bill, Senate bill 1518, provides for renewals in the Section 8 
project-based rental assistance account.
    In closing, Senator, I just want to indicate that I would 
be happy to answer any questions, and it is a pleasure to be 
here.
    Senator Reed. Thank you very much, Mr. Secretary. Mayor 
Fenty, please.

   STATEMENT OF ADRIAN M. FENTY, MAYOR, DISTRICT OF COLUMBIA

    Mayor Fenty. Thank you, Chairman Reed, Ranking Member 
Shelby, other Committee Members. Thank you for having me. For 
the record, my name is Adrian M. Fenty, the fifth elected Mayor 
of the District of Columbia, and I am pleased to testify in 
support of the Community Partnership to End Homelessness Act of 
2007, a huge priority of our administration in Washington, D.C.
    I will talk briefly about the District Government's efforts 
to end homelessness in the Nation's capital. Homelessness is a 
significant challenge in Washington, D.C., as it is in every 
other major city in this country. The homeless population has 
decreased in Washington, D.C., but the high cost of housing and 
the high rate of poverty in many of our neighborhoods are still 
major concerns.
    According to 2007 data, on any given night we have more 
than 5,700 homeless residents, including 1,760 who are 
chronically homeless. This represents a 6.5-percent decrease 
from 2006, and of these 5,700 residents, many are in emergency 
shelters, transitional housing, and some still on the street, 
as every Senator here knows firsthand. We also have more than 
18,000 people who identify as homeless on our Housing Choice 
Voucher Program waiting list, a waiting list that now numbers 
over 50,000.
    The District continues to increase its stock of affordable 
housing, including permanent supportive housing, where 38 
percent of our homeless population resides. This is an increase 
of 11 percent over last year, which means that 3,582 formerly 
homeless people are now living in permanent housing. We are 
thankful to the Department of Housing and Urban Development for 
its support of the District's continuum of care. We are just 
submitting our new application requesting more than $17 million 
in funding for many important renewal projects and five new 
permanent housing projects. This application reflects the 
city's commitment to the objectives laid out in our own 
Homeless No More plan, implemented in 2004 with a goal of 
ending homelessness in 10 years.
    We are also committed to a Housing First strategy that 
focuses on, first, getting a roof over one's head and then 
providing the needed services to keep people in permanent 
housing. And we have created a new locally funded rent subsidy 
program to provide permanent housing to hundreds of homeless 
residents in the Nation's capital.
    Our efforts in the District are spearheaded by our local 
Interagency Council on Homelessness for the purpose of 
facilitating interagency, Cabinet-level leadership. The 
District Government supports the Community Partnership to End 
Homelessness Act of 2007 because it is consistent with our own 
comprehensive housing strategy.
    Several significant changes we think are noteworthy. First, 
consolidating and simplifying current funding programs--
Supportive Housing, Shelter Plus Care, and Moderate 
Rehabilitation/SRO--into a single community homeless assistance 
program. This allows flexibility in funding preventive services 
and programs for the chronically homeless, including families 
and people with disabilities. The bill also increases 
accountability and rewards high performance--approaches our 
administration have begun to implement throughout the city.
    The act has a significant focus on prevention, including 
separate funding for doubling up of households, one of our 
highest indicators of being at risk of becoming homeless. The 
prevention focus is important and builds off our successful 
Emergency Rental Assistance Program, begun in December of last 
year, which helps families that may become homeless because of 
a significant event in their life--loss of a job or emergency 
medical expenses. This program helps these families stay in 
their current living situations instead of becoming homeless. 
Since January, we have assisted almost 1,500 households with 
their rental payments, providing an average of $1,713 per 
household to keep them in their current living situation and 
not become homeless.
    Mr. Chairman, I believe having a single homeless person is 
too many in the Nation's capital--the capital of the world's 
most prosperous democracy. Having almost 6,000 homeless people 
is tragic. But I am fully confident that we can end this 
tragedy with the continued support of the Federal Government. 
Thus, I urge you to pass Senate bill 1518 without delay.
    This concludes my prepared remarks, and I am open for 
questions.
    Senator Reed. Thank you very much, Mayor.
    Mayor Franklin.

 STATEMENT OF SHIRLEY FRANKLIN, MAYOR, CITY OF ATLANTA, GEORGIA

    Ms. Franklin. Thank you very much, Mr. Chairman, Ranking 
Member Shelby, and Members of the Committee. It is my pleasure 
to join my colleagues this morning with testimony in support of 
the reauthorization of the McKinney-Vento Act as it is critical 
to our continuing efforts in Atlanta to end chronic 
homelessness.
    The partnership between the Federal Government and local 
communities has provided the primary source of funds, over $85 
million since 1995, for our regional efforts toward identifying 
and filling the gaps in services for the homeless.
    This funding has helped Atlanta and our two neighboring 
counties--Fulton and De Kalb--develop and sustain permanent 
supportive housing units, transitional housing units, and the 
wrap-around services that are crucial to serving the 
population. HUD's emergency shelter grants, over $5 million 
since 1995, also help us develop and sustain emergency 
shelters, although we hope that someday this particular type of 
housing will no longer be needed.
    In Atlanta, we approach the challenge of ending 
homelessness from both a humane mandate as well as a 
financially sound policy.
    We know that the chronically homeless who migrate through 
our public systems--from the streets to the public hospitals, 
nonprofit agencies, to the jails and back to the streets--are a 
very expensive way to provide services. According to various 
studies from places as diverse as New York City, Portland, 
Oregon, New Hampshire, going back as far as 1987, each of these 
individuals can cost communities from $40,000 to $50,000 per 
year. We are in the midst of documenting the actual cost in 
Atlanta, and we anticipate the number is going to be extremely 
high.
    We also know we can more effectively serve those 
individuals by getting them into housing with appropriate 
services for an annual cost of between $15,000 and $20,000 a 
year and can move many of them toward self-sufficiency, which 
they desire.
    In Atlanta, we have taken this message to our residents and 
to the business community. We have challenged the local 
community to step up with local resources to do our part to 
match the Federal HUD dollars.
    Two years ago, the city of Atlanta issued $22 million in 
Homeless Opportunity Bond funds to build and develop supportive 
housing. We are developing over 500 new units. The matching 
Federal dollars are critical to matching each of these project 
budgets. And through our Regional Commission on Homelessness, 
comprised of leaders from Atlanta and seven surrounding 
counties, we have developed our 10-year Plan to End Chronic 
Homelessness, and we have appealed to the business community to 
join our effort. The business and philanthropic community has 
responded with over $30 million in additional funds for housing 
and services to be developed throughout our region. We could 
not have been successful in our appeal if we did not use the 
Federal funds as leverage.
    This reauthorization would allow us even to expand those 
initiatives. Several of the components have been discussed by 
my colleagues, and I will just add one or two points.
    It creates separate funding for projects that focus on 
economic reasons for homelessness and prevention. It allows 
more quick authorization of the projects, allowing us to spend 
more time on those who are chronically homeless. The funding 
for ongoing renewal projects will be separated so that we can 
add funding for much needed new projects without jeopardizing 
the well-run and very essential existing projects.
    It decreases the time period for the review process and 
technical submissions, moving it to within a year instead of 2 
to 3 years. My written testimony will identify other advantages 
we see in this.
    Finally, I would like to acknowledge the tremendous effort 
of the Interagency Council on Homelessness with whom I have 
worked over the last 3\1/2\ years. The Interagency Council has 
provided tremendous leadership and guidance to cities like 
Atlanta, to cities like Denver and others, in developing our 
own plans to end homelessness.
    I am more than happy to answer any questions that will come 
up. I know that this is a very serious matter for the city of 
Atlanta, and I would just note that in the case of the city of 
Atlanta, the responsibilities for human services fall largely 
to our county government. So we have made special efforts to 
collaborate with our county governments so that we both in the 
cities, in the jurisdictions around Atlanta, and the counties 
can have a comprehensive way of approaching this problem.
    We thank you for the opportunity to testify today, and I 
have provided written testimony as well.
    Senator Reed. Thank you very much, Mayor. Thank you all for 
your excellent testimony and for your great leadership in the 
communities and at the national level, Secretary Bernardi.
    Mr. Secretary, let me ask you a question. Do you think the 
HUD definition of homelessness should be expanded?
    Mr. Bernardi. Homelessness, the definition that we operate 
under, is any individual who is living on the street or living 
in a facility, and I feel that covers it adequately.
    Senator Reed. In your testimony, Mr. Secretary, you state 
that the HUD bill and legislation sponsored by myself and 
Senator Allard would decentralize the Federal role in the 
selection of specific projects for each continuum of care. Can 
you talk about the practical impact at the local level for this 
decentralization?
    Mr. Bernardi. As I mentioned in my opening statement, 6,000 
applications, there is approximately 450 continuums in the 
country. This consolidation of the three programs into one 
would basically--we would be down to about 450 applications, 
and it would be up to the local continuums and their boards to 
make a determination to prioritize their needs. And I can think 
of no better way to do that than by passing this legislation. 
It would give them the opportunity to make the prioritization.
    I do not have the concern that perhaps some do that the 
local continuums would perhaps play favorites with it. You 
know, the homeless population, we just completed a report, the 
Annual Homelessness Assessment Report, and that report was 
issued in February. It will be issued every year now. It was a 
long time in coming. But the numbers show that 75 percent of 
the people that are homeless are in urban areas and cities; 25 
percent are in suburbia and in the rural areas. Right now under 
the present continuum, 10 percent of our projects fund rural 
programs. So I believe the continuums look at everything very 
critically and address the needs.
    So I feel very strongly--and I know you all agree--to push 
this into one consolidated program. That one consolidated 
program, as I mentioned in my opening statement, it would take 
us a few months to get through it, as opposed to now the 
funding--notice of funding availability goes out in February, 
all of the applicants, the continuums, have until the middle of 
June to return it to us, and then staff has to go through those 
6,000 applications, and if we are fortunate, by December or 
January of the next calendar year, the decisions are made. I 
know Secretary Martinez always had asked when we had to go 
through that process, you know, we want the continuums and the 
communities to get the money in the year that we are working 
in.
    Senator Reed. Well, thank you, Mr. Secretary.
    I have a question for both Mayor Fenty and Mayor Franklin. 
That is, you are where all this happens, at the local level, 
and if you could just elaborate on your testimony by indicating 
those aspects of current Federal policy that help you and those 
that are unhelpful. We will start with Mayor Fenty, then Mayor 
Franklin.
    Mayor Fenty. Well, if I had to choose one, I think our 
directors believe that being able to apply it to one single 
program would not only make things happen quicker, but simplify 
what we need to have done. Thus, we applaud that effort of the 
bill.
    We need to have certainty. A lot of this money is going 
into projects that we are trying to leverage money from the 
private sector and other government programs. Certainly, the 
funding and the timing of it, it is essential for us to be able 
to build more housing for our homeless neighbors.
    Senator Reed. Thank you.
    Mayor Franklin.
    Ms. Franklin. I would agree with that, and I would add the 
point that the flexibility to identify, the flexibility to use 
the funds based on community need through a series of 
assessments that local communities use. In the case of Atlanta 
and Fulton and De Kalb counties, we are actually funding 
programs to match. So we have to be concerned about the use of 
those funds in a way at the local level that are not even 
engaged in the Federal funding process. So we feel confident 
that we can make the judgments, as been described by the 
Secretary, in identifying community need based on research, 
objective research, which is already gathered on an annual 
basis.
    Atlanta is not in the position that I have heard several of 
the other presentations referred to where we have seen a 
reduction. We actually have a slight increase in the number of 
people with our most recent survey in 2007. We can document who 
we are serving, and we see people moving to self-sufficiency. 
But because of the draw of population that we are experiencing 
in Atlanta, we have about the same number of people today that 
we had 6 years ago--I mean a year ago and even 6 years ago.
    So we know that we are going to have to be invested in this 
area for a long time, and the quicker that we can get the 
funds, the quicker we can move people, take care of people who 
are about to fall through the cracks and become homeless or 
address the issues of chronic homelessness and the lag time 
between, as have been described by the Secretary and the Mayor, 
really do put us at a disadvantage.
    Our ability to leverage funds is knowing how much money we 
are going to have and then making the direct appeal either to 
the governmental entities--in my case, the city of Atlanta and 
the council--or to my neighboring entities. And if I am making 
the pitch not knowing when the funds are coming or how much, it 
is harder to get into the local budgets.
    Senator Reed. Thank you. Thank you all, again, not only for 
your testimony and responses to the questions, but for your 
great leadership.
    Senator Shelby.
    Senator Shelby. Mayor Fenty, this is not totally aimed at 
you because we know you have not been in office that long, but 
I admire what you are starting out doing. Also, other than 
living in Alabama, I live in the District, too, and I see some 
changes, and I wish you well as you tackle those and recognize 
those, which you do.
    But the District of Columbia has received on a per capita 
basis more Federal homeless assistance than any other 
jurisdiction in the country, yet the District of Columbia in 
the past has only made minimal progress in reducing 
homelessness in recent years. I admire you for tackling this 
and recognizing the problem here.
    You talked about a number of initiatives in your written 
statement you are undertaking to improve the District's record 
on homelessness, and I commend you for this. Could you take 
just a few minutes, if you would, and tell us how these new 
steps are different from the past ones that have been 
unsuccessful? In other words, what lessons have you learned in 
the District from past mistakes? And how are you putting those 
lessons--because you are doing it in other areas in education, 
and it needs to be done, and you have to do it while you are 
fresh on the job, don't you?
    Mayor Fenty. It is an excellent point, Ranking Member. The 
District's strategy, I would say even 5 years ago, was really 
just to shelter, just put the homeless residents in shelter, 
and it was not very good shelter.
    With the leadership at the Federal level and the national 
level, I think we have turned that to focus on housing, and now 
even more up-to-date a focus on prevention.
    And so what we tried to highlight in the testimony was that 
through local dollars we have put millions in for rental 
assistance because in the District the price of renting a place 
is so high that you can indeed have a job and yet can be on the 
brink of homelessness because you cannot pay your rent or other 
utilities. And so we have tried at the local level to put 
dollars into that, and our rental assistance program is very 
successful. We have actually also put local dollars into the 
housing voucher program just because the number of people on 
the list is growing and we want to at some point reduce that 
list.
    But I think some of the things that are in this legislation 
go right to the guts of what we are trying to do here in the 
District of Columbia, and that is, No. 1, to really focus on 
preventing homelessness from happening. And so the money for 
the doubling up of households we feel is critical, as we do 
focusing on residents who may be disabled or have some other 
ailment that may lead them to being homeless.
    So I would say, Senator, to sum up, we are putting a lot 
more responsibility on our local government to do prevention, 
and we are not wasting dollars in shelter. We are building 
housing, and we would use Federal dollars along those lines as 
well.
    Senator Shelby. Mr. Secretary.
    Mr. Bernardi. I would just like to add that the first 
continuum of care demonstration grant was right here in the 
District of Columbia in 1994, and, Ranking Member Shelby, last 
year it was about $16 million to the continuum in the District 
of Columbia. And they were funded at about 96 percent of their 
ask, but they were looking for new programs, and that is one of 
the difficulties that we have. About 85 percent of the funding 
of that $1.2 billion that goes to the continuums, 85 percent of 
that is for renewals. So new projects, very difficult to fund.
    I also want to say that the District of Columbia has 
tremendous private participation by local government and other 
entities that support their homeless program.
    Senator Shelby. Thank you.
    Mr. Secretary, Hurricane Katrina, as you well know, because 
you work in this, displaced thousands of families, many of whom 
remain homeless today. What steps has HUD taken within its 
homeless assistance program to address the increase in 
homelessness resulting from Hurricane Katrina?
    Mr. Bernardi. Providing vouchers to the homeless population 
that----
    Senator Shelby. That lets them shop?
    Mr. Bernardi. Pardon me?
    Senator Shelby. Lets them shop.
    Mr. Bernardi. Yes. Vouchers for the homeless population. At 
the same time, other continuums of care around the country came 
to the aid of the Gulf Coast during its time of need. And also 
we are providing technical assistance through the Department to 
all of the continuums in the affected area.
    Senator Shelby. It is a challenge, though, isn't it?
    Mr. Bernardi. Oh, it is a tremendous challenge. There are 
so many challenges, but that perhaps is the most daunting of 
all, when people do not have the wherewithal, the ability, 
whether it is substance abuse, the reason that they are out 
there in the street. And it is an effort that we all recognize 
and we are all working together on.
    Senator Shelby. Mr. Secretary, how is HUD addressing within 
the continuum of care process the disadvantages faced by small 
towns and rural communities in their ability to compete for 
grants? Senator Crapo raised that earlier in his opening 
settlement.
    Mr. Bernardi. The capacity of rural areas obviously is not 
that of urban or suburban areas, but we have found, as I think 
I mentioned earlier, that the continuums work well in totality, 
making sure that all of the areas within their particular 
jurisdiction are represented and receive assistance. I did 
mention that 10 percent of the projects that we fund are in 
rural areas, and perhaps they are about maybe 10 percent of the 
homeless population.
    I also believe prevention, as Mayor Fenty indicated, that 
is going to go an awfully long way, especially when you have 
people that are just on the edge. Those prevention dollars I 
think will go a long way in the rural areas--a lot of people 
are probably doubled up--to not have them fall into 
homelessness, to making sure that the resources are there in 
prevention, up to 30 percent the continuum can use with the new 
legislation, hopefully it will be passed soon, and utilize 
those dollars to assist people with a utility bill or a rent 
payment so that they do not fall into homelessness.
    Senator Shelby. Well, as you are aware, most States--and 
particularly my State of Alabama, we have large cities like 
Birmingham, Mobile, Huntsville, and Montgomery and so forth; 
and then we have a lot of small rural areas that will be 
impacted. And we want to make sure there is fairness in these 
programs.
    Mr. Bernardi. And the numbers that I mentioned, we are very 
cognizant of the fact that--we have a Homeless Management 
Information System, and of the 450 continuums, about 413, I 
believe, are now part of our Homeless Management Information 
System, and what that does is they get extra points in the 
competition to count the homeless population. Where is that 
population? What are the needs? And how are you addressing it?
    Senator Shelby. Thank you for your indulgence, Mr. 
Chairman.
    Senator Reed. Thank you, Senator Shelby.
    Senator Casey.
    Senator Casey. Yes, Mr. Chairman, thank you very much. And 
I wanted to thank the witnesses for their testimony. For 
purposes of this hearing, we will refer to all of you as 
``Mayors,'' if that is all right. But we appreciate the fact 
that you are literally, depending on whatever the military 
analogy is, on the front line, in the trenches. All those 
apply. So I think your perspective on this issue, but in 
particular the reauthorization, is especially relevant and 
pointed and focused. So I wanted to ask you about, I guess, 
currently where things are and, second, how this legislation 
would positively impact your work to end homelessness in your 
communities.
    I was particularly interested in the question of families 
that have children with chronic disabilities or other more 
difficult circumstances and whether or not what is happening 
now under current law as opposed to what would be the case 
under the reauthorization, and in particular the Reed-Allard 
bill, how that would positive--I hope positively--impact that 
situation. If any of you can speak to that, and certainly the 
Secretary is more than familiar with the current status of that 
issue in terms of how we deal with chronic illnesses with 
children.
    Mr. Bernardi. Approximately 50 percent of the resources 
that we spend are to help the homeless with children. We do not 
list that as chronic homelessness unless there is a disability 
there. We feel very strongly that the chronic homeless 
population that exists in this country--and it is numbered at 
about 170,000 right now--that those are individuals--and I 
believe it was Senator Reed in his opening statement mentioned 
that they are chronic. They have been out on the street for a 
significant period of time. They have had multiple incidences 
of homelessness. A very difficult-to-reach population. As 
mayor, I recall seeing the same individuals that you try to 
assist and the revolving door and they would be back out on the 
street.
    So we feel very strongly we need to put those individuals 
in permanent housing--not at the expense of families and 
children. As I mentioned, 50 percent of our resources go for 
families and children. But that chronic population--of 750,000 
homeless people, we have 170,000 of them. They use about 50 
percent of the emergency resources in this country. So we 
really need to take those individuals, provide them the 
emergency shelter, obviously the transitional, but get them 
into permanent housing. That is why we offer more points than 
the competition for continuums that do permanent housing. We 
feel that is the way to have those people hopefully be able to 
come back to a life of respect for themselves and of 
dependency, if you will, on themselves, but never at the 
expense of taking care of families and children.
    Senator Casey. Thank you.
    Mayor Fenty or Mayor Franklin?
    Ms. Franklin. I would like to just add ``ditto'' to that, 
because we look at our numbers from 2007, there are two aspects 
of the changes that will help us. One is the flexibility and 
the ability to work toward prevention. Those two are really 
important to us because the flexibility gives us the chance to 
look at where the services are currently provided for homeless 
individuals or families with children and, therefore, assess 
where the greatest need is in the course of our work.
    But our numbers show that we have 17, almost 18 percent of 
our homeless population which is families and family members, 
which tells you very quickly that our numbers track much of 
what the Secretary has said, large number of adult males who 
have to be served if we are going to serve the homeless 
population successfully. So we really have to work on both 
ends. And, frankly, the hardest piece in a city like Atlanta in 
our urban area, where we experience the most NIMBY factors are 
with the single men. So we would hope that the bill would 
speak--would allow us the flexibility to deal with both, 
depending on where the need is.
    Mayor Fenty. Two quick points, Senator.
    One, there is in the District of Columbia, less than 4 
miles from here, a homeless shelter that we are actually trying 
to close and move those families into the type of supportive 
apartment-style living that the country would be proud of. And 
it is just so tough in the District, and so I cannot 
overemphasize how important any scarce dollars are for this 
purpose. And I think families are a very reachable population, 
and so the second point I would just make is that the 
preventive dollars that I talked about in this legislation are 
just so critical, because obviously no one wants to become 
homeless, but I think that is even more so with families. And 
so the more we can help them pay rent, pay utilities, or some 
other bill that could put them on the brink of homelessness, I 
think we are doing a lot not just for that individual parent 
but for the young kids who then could fall into a system or a 
pattern of homelessness themselves.
    Senator Casey. Thank you.
    Senator Reed. Thank you very much, Senator Casey.
    Senator Martinez.
    Senator Martinez. Well, thank you, Senator Reed.
    Secretary Bernardi, are we making progress with the chronic 
population, which to me seems to be the very crux of the 
problem. As I look back to what my goals were, I was always 
focused on the chronic population, which seems to take such a 
disproportionate share of the dollars compared to the rest of 
the homeless population and who are afflicted with other 
ongoing problems which caused their homelessness in the first 
place.
    Mr. Bernardi. We are, Senator. Over 200 continuums have 
reported in 2006 that their numbers of chronic homeless has 
decreased, so progress is being made in that area. A very 
difficult population to serve, as you know, Senator, but we are 
pointed in the right direction. And we feel that the 
continuums, not only the 200 but others, with the programs that 
we have in place, with the consolidation especially with the 
preventiveness of it, we can utilize additional resources to 
take care of that population.
    Senator Martinez. It seems to me a good idea to commend 
Senators Reed and Allard for their bill as well as the HUD 
proposal, which I think are very, very similar. Certainly 
consolidating the grant programs seems to be an idea whose time 
has come, and it would be a great thing.
    But the one thing I would hope as we go forward is that 
there continues to be a focus on the chronic population as a 
key component of our strategy to end homelessness. And so I 
presume does not do anything to change that.
    Mr. Bernardi. Our bill does not, no. We want to continue 
that definition of chronic homelessness and work on that. I 
think as Mayor Franklin indicated, the predominance of single 
individuals, predominantly men, who are out on the street, you 
know, that recidivism, we just really need to continue our 
efforts on that, and not at the expense of anyone else out 
there, but at the same time making sure we continue to reduce 
those numbers.
    Senator Martinez. I think as we reduce those numbers, there 
will be more dollars available to help the remaining 
population, which oftentimes are more inclined to not fall back 
into homelessness. You know, what the mayor is trying to do 
with prevention and things like that, I mean, those are folks 
that are not going to be homeless but for the circumstances 
they find themselves in at a moment in time.
    Mr. Bernardi. You find in many instances that it is a 
single occasion for most people and families. They enter into a 
homeless situation because of a job loss or a domestic 
situation, and they are in and out of the system. But it is the 
chronic homeless that, as you mentioned, take a significant 
amount of the resources. So I think to continue the attention 
and the focus on that is extremely important.
    Senator Martinez. Mayor Fenty, I know that we are not--when 
I was at HUD, we worked very closely with your predecessor in 
terms of the special relationship with the District that I know 
HUD has enjoyed, and I am sure that will continue in the 
future. But I want to commend you for your efforts.
    I know that my own interest in this issue was sparked by my 
first coming to D.C. and seeing in our Nation's capital the 
condition of homelessness, which I know President Bush also 
reacted to. And I think he and I and I know many others share 
in your goal that our Nation's capital ought to be a place 
where homelessness is a thing of the past. So I look forward to 
helping you in any way that I can.
    Mayor Franklin, I wanted to touch on something else, too, 
which I think just to commend you for the great job that your 
city does with your housing authority and Renee Glover, who is 
such a great leader in that area, and yesterday we were in this 
room talking about HOPE VI and the reauthorization of HOPE VI 
and the hope that it brings to communities. And I know that you 
are a fine example of that, so thank you for being with us 
today and continue your good work in Atlanta, to you and Ms. 
Glover as well.
    Ms. Franklin. On that point, I would like to add that the 
housing authority is engaged in initiatives around eliminating 
chronic homelessness by designating vouchers that assist us in 
placing the chronically homeless in our housing authority 
projects. So they are a full partner, and I am not here to 
testify on that, but I would have been yesterday. Thank you.
    Senator Martinez. Thank you, ma'am.
    Thank you very much, Mr. Chairman.
    Senator Reed. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. I appreciate your leadership on this 
question of homelessness. You know, we have 20,000 people in my 
home State of New Jersey that are homeless every day. We have 
three-quarters of a million people on any given night in 
America that are homeless. In my mind, that is really not 
acceptable. And when we talk about this issue, you know, home 
in my mind is the fundamental essence of strong families and 
strong communities. It is where we are brought to when we are 
born. It is where we are nurtured during the course of our 
lives. It is where we come to for celebrations and where we go 
through bad times. It is in essence where our heart is, and it 
is the very essence of creating, as I said, strong communities 
and strong families. As a former mayor myself, there is nothing 
that bothered me more than to see someone who did not have a 
place to call home.
    So this is a critical issue, and, you know, Mayor Fenty, I 
appreciate the fact that--I think it was just reported that 
here in the District homelessness was reduced by 6.5 percent 
and chronic homelessness by 6 percent last year. I know the 
Ranking Member asked you some questions, and that is clearly 
progress, so we applaud you on that.
    Let me ask you, though, I think in your testimony you said 
families that are forced to double up are not considered 
homeless for the purposes of technically homeless, but as you 
say, they are at a high risk for becoming homeless. With your 
experience, how are you trying to deal with that issue?
    Mayor Fenty. Well, it really is housing, primarily, to make 
sure that the residents have the ability to live on their own 
instead of having to double up, and that is why the dollars 
that we are talking about here today are so important.
    The other thing I just want to say kind of goes to 
Secretary Martinez's point, and that is, the amount of help 
that comes from the Federal Government really leverages the 
local official. And as a former mayor and all of us as mayors 
and former mayors know, the chronic homeless, the people who 
need our employment agency to work with them or a mental health 
agency, the more housing we provide, the more we get at the 
people who are kind of the ``lower-hanging fruit,'' the more my 
administration can focus on the really tough problem that you 
are really just going to have to work with one on one through 
our Department of Human Services.
    So as much as I think this bill is forward-thinking and 
going after the people who may become homeless or the families 
who may just have become homeless, it will help our 
administration be able to put even more resources into the 
chronically homeless residents who really are the people who I 
think people who are coming into the city, who travel downtown 
see hanging out in the parks or under the bridges, and the only 
way we can get them is with an infusion of resources by a whole 
team of people on the local level.
    Senator Menendez. And that is one of the concerns I have, 
and that is why I asked you the question, because whether it is 
yesterday's hearing on HOPE VI, you know, we cannot continue to 
have zero in the budget. And the reauthorization of that I 
think is incredibly important. We have great experiences in New 
Jersey. And then see a 17-percent cut in the capital funds for 
public housing authorities and see the ripple effect and then 
the asset-based management that is making it increasingly 
difficult for a lot of these public housing authorities.
    And so I look at the ripple effect of this, and today we 
are focused on homelessness, but at the end of today it is 
about how much housing stock do you have, what type of 
resources do you have to meet all of these challenges in a 
holistic way.
    Mr. Secretary, on that final note, let me just ask you: 
Senator Reed's bill allows families with one disabled parent to 
be included in a category of chronic homelessness. I understand 
the administration keeps its definition on chronic homelessness 
the way it is and does not include Senator Reed's view.
    Don't you believe that when we have an adult in a homeless 
family that is disabled that that is a serious crick in the 
chain? And, second, on the same question of families, Senator 
Reed's bill ensures that 10 percent of national funding goes to 
chronically homeless families with children to provide 
permanent housing. Does the administration's proposal do the 
same? And if not, why not?
    Mr. Bernardi. On the disability of an individual in a 
family, I would agree with you the answer is yes. I would think 
that would qualify--that should qualify as a disabled homeless 
person if there is a person in the family that is homeless.
    On the bill, the 10 percent, I am not familiar with our 
point on that bill, but what I will do is take a look at----
    Senator Menendez. Well, we would love to hear back from the 
administration.
    Mr. Bernardi. But I think we are close on so many of the 
areas, and I want to just reiterate what Senator Martinez 
stated. Senator Reed and Senator Allard have been working on 
this for a few years with their staffs and with our Special 
Needs Assistance Program, and I think we are close, and I just 
hope that we will be able to put it together. I think it is 
long overdue, and it would provide the kind of speed and the 
kind of assistance and flexibility that the mayors at the table 
here and all over the country need.
    Senator Menendez. Well, I appreciate that. I appreciate 
both for their leadership. But just a last point on families, 
at the end I think one of the mayors said no one wants to be 
homeless, and we do not want anybody to be homeless. But it 
seems to me the ripple effect in our society, particularly when 
families are homeless, is such an enormous consequence. It goes 
into our schools. It has many dimensions to it, and so I really 
applaud both of them and that element of the bill, and I hope 
the administration can work its way to find common ground with 
them on that and certainly look to be supportive of it.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    As you know, Mr. Secretary--or maybe you do not know--I 
have taken a particular interest in the PART program, and the 
current programs that you have at HUD dealing with the homeless 
and everything have been effective programs, according to that. 
And so I am curious to see how you are measuring your outcomes 
now and how you might measure them under this reauthorization 
of McKinney-Vento and if this will actually improve your 
ability to measure outcomes.
    Mr. Bernardi. Senator, we believe so, and I do know of your 
interest in GPRA. Each one of the continuums and the 
applicants, they provide an annual progress report, and that 
annual progress report is reviewed by the continuum in the area 
that it represents as well as by HUD. And as you mentioned, in 
the Program Analysis Report Testing through OMB, our Special 
Needs Assistance Program did score very, very high. It scored 
at 87. It was judged as one of the most effective programs in 
the country.
    Just some of the statistics on that. The percentage of 
formerly homeless individuals who remain housed in HUD 
permanent housing projects for at least 6 months, our goal for 
2007 is that will be 71 percent. And we met that goal in 2006; 
also, the percentage of homeless persons who moved from 
transitional to permanent housing, 61 percent.
    Now, the employment rate of persons exiting HUD's homeless 
assistance programs will be 18 percent. That is another 
component, I think Senator Menendez indicated it. You know, we 
need to make sure that we prevent people from falling back into 
homelessness.
    We also plan to create another 4,000 new permanent housing 
beds for the chronically homeless. We did that in 2006, just a 
couple hundred shy of 4,000, but our goal for 2007 is 4,000.
    The performance measurement, we look at that very closely. 
The continuums do as well. And I think the consolidation will 
just give us an opportunity to have the continuums even more 
effectively work with the recipients in their respective 
jurisdictions to make sure that the best value for the dollar 
is being received.
    Senator Allard. Thank you. I am going to address the next 
question to both the mayors.
    Mayor Fenty, I have watched your new administration here in 
D.C., and I congratulate you on a good start. As you know, you 
have testified in front of the committee on which I serve on 
D.C. appropriations, and also it is good to see you here and 
hear what you have to say about homelessness. You know, I do 
think that it is important that we have a lot of cooperation 
between entities, and I believe that we need to do what we can 
to encourage more cooperation.
    What are your thoughts about the entities, local entities 
that you have in and around Washington, D.C.? Are you all on 
the same page on this? Do you come out going on your own? Or 
are you so competitive that you cannot cooperate? I would like 
to hear some of the comments you have on that and if you think 
that this bill will help us straddle some of these multiple 
jurisdiction issues.
    Mayor Fenty. As you are aware from working, Senator, I 
think there is the type of regional cooperation that is a model 
for the rest of the country, not only because of the fact that 
so many people from Maryland and Virginia work in the city, but 
because the District is small geographically and we work with 
our regional partners.
    So through COG, through the Council of Governments, there 
has been an enormous amount of discussion and solutions put 
forward on how to deal with affordable housing and the crisis 
and how that impacts the homeless population. We will 
continue--I do think that the District is so different from the 
neighboring jurisdictions that there will not be any 
competition, that it will be the exact opposite, that there 
will continue to be collaboration. And I think that is also 
true with the Federal Government. It is lucky to be here in the 
District because we work very closely with the Senate and with 
the administration. And one place I think we can do even more 
of that is just specifically in the District. I do not know if 
it is the case in other cities. Our long waiting list for 
housing vouchers is detrimental to anyone who is looking for 
affordable housing. But for those who are homeless, they are so 
far back on the list that it is not even a useful tool anymore. 
And there may be a way going forward that we give more of a 
preference to homeless residents or looking into some other 
program.
    Senator Allard. Mayor Franklin, do you have any comments in 
that regard?
    Ms. Franklin. Just briefly. The initiative to develop a 
plan started as an initiative of my administration, which is 
the city of Atlanta, 500,000 in population. We have grown that 
collaboration to cover eight jurisdictions, moving from 500,000 
to nearly 3 million people are represented by their elected 
officials and business leaders on our Regional Commission for 
the Homeless. That regional commission is a voluntary service, 
so just in 4 years we have been able to show that this 
initiative can gain support outside of our own political 
jurisdiction. And I would say it is probably one of the best 
examples in Atlanta's history of voluntary cooperation on an 
initiative.
    And to the extent that the flexibility is built in, as I 
understand it, certainly not as thoroughly as the Secretary 
does, we would be able to work across political jurisdictions 
on this continuum of care. And I would note that while the city 
issued $22 million in bonds using a car rental tax to finance 
those bonds for transitional housing and housing with 
supportive services, we make those funds available outside of 
our political jurisdiction because of the level of cooperation 
that we have developed over the last 4 years.
    So we are hopeful that the flexibility will reinforce the 
kind of cooperation that we have developed over time.
    Senator Allard. Thank you for your comments.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Allard.
    Senator Bennett.
    Senator Bennett. No questions.
    Senator Reed. Thank you very much for your excellent 
testimony. We will keep the record open because my colleagues 
might have written questions which we would ask you to respond 
to, but, Mayor Bernardi, Mayor Fenty, Mayor Franklin, thank you 
very much.
    Let me call the next panel forward. Thank you very much.
    At this time I would like to recognize Senator Bennett, who 
will introduce Mr. Pendleton. Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman. I 
appreciate Lloyd Pendleton's being here and the Committee's 
wisdom in inviting him. I think he brings a view of this whole 
issue that is both unique and very useful. He graduated from 
Brigham Young University with a bachelor's degree in political 
science and an MBA, and then worked for Ford Motor Company in 
Detroit for 14 years in the finance area before the Church of 
Jesus Christ of Latter Day Saints reached out for him and 
brought him back to Utah, where he has spent the last 25 years 
in the church's welfare department implementing a worldwide 
humanitarian program, and overseas, the expenditure of millions 
of dollars and millions of hours of volunteer labor aimed at 
humanitarian activities around the world.
    During the last 2 years of his career with the church, he 
was a loaned executive to the State of Utah to assist the State 
in the development of a 10-year plan to end chronic 
homelessness and facilitate an organizational structure for 
implementing the plan. And last year he began working full-time 
for the State, after having the loaned status, to develop a 10-
year plan, and he is presently employed by the State in the 
Division of Housing and Community Development in the Department 
of Community and Culture.
    So we are very proud of you, Mr. Pendleton, and I am happy 
to introduce you to the Committee and welcome you here to the 
Senate.
    Mr. Pendleton. Thank you.
    Senator Reed. Thank you very much, Senator Bennett.
    Let me introduce the other panelists. Ms. Linda Glassman is 
the current Secretary for the National AIDS Housing Coalition 
Board of Directors. Ms Glassman has been the Executive Director 
of the Corporation for AIDS Research, Education, and Services, 
CARES, in Albany, New York, for the last 12 years. CARES is a 
not-for-profit agency that provides technical assistance and 
consulting services to State and local governments, not-for-
profit agencies, and funders regarding the planning, 
development, implementation, and evaluation of housing programs 
for homeless persons and persons who are living with HIV/AIDS 
and other disabilities. Prior to coming to CARES, Ms. Glassman 
worked for more than 15 years in the provision of housing to 
homeless individuals, including victims of domestic violence, 
runaway and homeless youth, and homeless families. Thank you, 
Ms. Glassman.
    Ms. Carol Gundlach is Executive Director of the Alabama 
Coalition Against Domestic Violence. Senator, do you have any 
words to say?
    Senator Shelby. Mr. Chairman, thank you. I would be glad to 
reiterate some of the things that I had said earlier. She is 
well known in Alabama for what she stands for and what she has 
done. She is the Executive Director of the Alabama Coalition 
Against Domestic Violence. She is a member of the board of 
directors of the National Network to End Domestic Violence, and 
she has been very active in the area of ending homelessness, 
which we are all interested in housing. It is all connected in 
some way some days, and we are proud to have here testifying 
today.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Shelby.
    Mr. Moises Loza is Executive Director of the Housing 
Assistance Council, HAC, a national not-for-profit corporation 
that works to increase the availability of decent housing for 
rural low-income people. The organization provides technical 
assistance, training, research, and has a revolving loan fund 
with assets of approximately $60 million to assist with the 
development of housing for low-income families and hard-to-
serve populations in rural areas. The Housing Assistance 
Council has loaned over $218 million, which has helped build 
over 60,000 units of housing in 49 States, Puerto Rico, and the 
Virgin Islands. It also conducts legislative policy and program 
analysis to assist, Federal, State, and public bodies and 
others to serve rural areas more effectively. Welcome, Mr. 
Loza.
    Finally, we have Ms. Nan Roman, who is well known and who 
has testified many times before this Committee, and we thank 
her for joining us today. Ms. Roman is President and CEO of the 
National Alliance to End Homelessness, a leading national voice 
on the issue of homelessness. The alliance is a public 
education, advocacy, and capacity-building organization with 
over 5,000 nonprofit and public sector member agencies and 
corporate partners around the country. Under her leadership, 
the alliance has developed a pragmatic plan to end homelessness 
within 10 years. To implement this plan, Ms. Roman worked 
closely with Members of Congress and the administration as well 
as with cities and States across the Nation. She collaborates 
with alliance members to educate the public about the real 
nature of homelessness and successful solutions. She has 
researched and written on the issue, is frequently interviewed 
by the press, and regularly speaks at events around the 
country. Her unique perspective on homelessness and its 
solutions comes from over 25 years of local and national 
experience in the areas of poverty and community-based 
organizations. Welcome.
    All of your statements are part of the record, and we would 
ask you to take 5 minutes and either summarize your statements 
or make any comments you wish, beginning with Mr. Pendleton. 
Welcome, Mr. Pendleton.

STATEMENT OF LLOYD S. PENDLETON, DIRECTOR, HOMELESS TASK FORCE, 
 DEPARTMENT OF COMMUNITY AND CULTURE, DIVISION OF HOUSING AND 
              COMMUNITY DEVELOPMENT, STATE OF UTAH

    Mr. Pendleton. Thank you. Thank you very much, Senator Reed 
and Ranking Member Shelby, for this hearing. I am honored to be 
able to comment on the Community Partnership to End 
Homelessness Act. I am also grateful for the support of our 
Utah Senators--Senator Bennett, who is a Member of this 
Committee, and Senator Hatch.
    During the last 5 years, the approach to serving persons in 
homelessness has shifted dramatically, as been commented here 
today. Because of your direction, the McKinney-Vento funding, 
and the 10-year planning emphasis, great strides have been made 
in Utah the last 3 years on tackling the difficult problem of 
homelessness. I will share several initiatives that we have 
undertaken in the last 3 years.
    One is our State Homeless Coordinating Committee, which was 
created in 1988, was restructured with the Lieutenant Governor 
as the Chair, and selected members of the Governor's cabinet 
and other policy-level decisionmakers were added as members.
    Four new committees with statewide responsibilities were 
created to focus on improving discharge planning, increasing 
affordable housing, increasing and improving supportive 
services, and implementing a statewide Homeless Management 
Information System.
    The Housing First model that has been developed in New York 
was introduced in Utah in August of 2005 with taking 17 
chronically homeless individuals and putting them into housing, 
and they had a 25-year average of being on the street. This 
pilot has provided the experience and the confidence for us to 
implement other larger Housing First projects.
    Twelve Local Homeless Coordinating Committees have been 
organized across the State, with local political leaders as the 
Chair of each committee. Each has prepared or is preparing a 
10-year plan that is aligned with the State's 10-year plan that 
implements local programs to meet the local needs. Each of 
these Local Homeless Coordinating Committees has implemented or 
is implementing a pilot focusing on results-oriented solutions 
for the chronically homeless and/or those that are chronic 
consumers of resources.
    This has especially raised the awareness of the rural 
political leaders in addressing the needs of the homeless. The 
homeless in the rural areas have not been as invisible as they 
are in the urban areas, and so this has made them much more 
aware.
    Case managers assess their clients and track their self-
sufficiency progress as part of a statewide Homeless Management 
Information System using a self-sufficiency matrix that we 
learned about that had been developed in Arizona.
    A housing project of 100 units for the chronically homeless 
opened in March of this year, and another complex of 84 units 
will open in March of 2008. And a renovated hotel that is being 
purchased this month will be opened up late in 2008 and create 
213 permanent units for the homeless.
    Utah participated in the SSI/SSDI training that you 
provided, and in the pilot we have reduced the decision time 
from almost 2 years to 3.2 months.
    The HUD McKinney-Vento programs are effective and useful 
for us. The programs mentioned above, and others, have created 
a momentum and excitement within Utah about our ability to 
realize the goal of ending chronic homelessness and reducing 
overall homelessness. Much of what we have accomplished is from 
more effectively reinvesting existing resources to achieve the 
desired outcomes. Continuing to build the momentum, however, 
will depend upon additional resources and continued 
collaborative efforts with the Federal Government, State and 
local governments, nonprofit and faith-based service providers, 
private foundations, and businesses. This is a society-wide 
problem that requires the cooperative participation of all of 
these organizations.
    The proposed Community Partnership to End Homelessness Act 
addresses much of what has been learned in the last 20 years, 
and we applaud the changes to the bill that have been discussed 
and are proposed. It will significantly benefit our eight Local 
Homeless Coordinating Committees covering Utah's rural areas.
    In conclusion, we in Utah support the proposed changes in 
the Community Partnership to End Homelessness Act. I am proud 
of what we have accomplished. These accomplishments have come 
from the efforts of many caring and committed people. I am 
convinced if there is any State that can end chronic 
homelessness and reduce overall homelessness, it is Utah. Our 
target date to accomplish this is 2014.
    Thank you.
    Senator Reed. Thank you very much, Mr. Pendleton.
    Ms. Gundlach.

   STATEMENT OF CAROL GUNDLACH, EXECUTIVE DIRECTOR, ALABAMA 
              COALITION AGAINST DOMESTIC VIOLENCE

    Ms. Gundlach. Yes, sir. Senator Reed, Ranking Member 
Shelby, and distinguished Members of the Committee, my name, 
again, is Carol Gundlach, and I thank you for the opportunity 
to testify this morning. I speak today on behalf of the Alabama 
Coalition Against Domestic Violence and the National Network to 
End Domestic Violence.
    The interrelated nature of domestic violence and 
homelessness is undeniable: 92 percent of homeless women have 
experienced severe physical or sexual assault. Experiencing 
domestic violence or sexual assault often forces women and 
children into homelessness. Because so many women and children 
become homeless as a result of domestic violence, it is 
impossible to separate the two issues into distinct categories. 
If we do not address domestic violence, children will continue 
to grow up in fear and in poverty, likely to repeat the cycle 
of homelessness.
    McKinney-Vento has provided significant funding for 
domestic violence shelters, transitional housing programs, and 
services. In 2005, over 600 domestic violence programs received 
nearly $118 million in McKinney-Vento funding.
    Unfortunately, HUD's practice in recent years have caused a 
range of problems for victims of domestic violence and for the 
programs that serve them. As the Senate moves forward in 
reauthorizing McKinney-Vento, domestic violence service 
providers would support a bill that returns control to local 
communities and works for homeless families by expanding the 
definition of homelessness, reducing bonus points and set-
asides, distributing funds to rural areas in a more equitable 
manner, and protecting the privacy of service recipients.
    Senate 1518 takes great strides beyond current HUD 
practice, and we thank Senator Reed and Senator Allard for 
their work on this legislation, and we look forward to working 
with the Banking Committee to pass a bill that meets the needs 
of all homeless individuals and families.
    The difficulty in addressing homelessness within Alabama 
provides a window into the complexities faced by many local 
jurisdictions. In Alabama, the homeless are often invisible, 
and it has been a real challenge to conduct a point-in-time 
survey in rural counties. We have long stretches of land where 
our volunteers run the risk of being shot if they wander 
through people's fields looking for homeless individuals who 
might be sleeping in barns or sheds.
    We see little, if any, chronic homelessness in rural 
Alabama or even small towns in Alabama. There are people who 
are at risk of chronic homelessness, but they are often from 
the local community and are doubled up with friends or family 
or sleeping from couch to couch. Many are in substandard 
housing conditions, and it is common in Alabama to see two or 
even three nuclear families sharing a dilapidated mobile home.
    The homeless families and individuals in Alabama may be 
less present on the streets or in front of local businesses. 
Their needs are just as real. Families and youth doubled up can 
be less safe than they are in shelters. Despite the desperate 
need for HUD-funded housing and supportive services, these 
families and youth cannot access that assistance because HUD 
does not count them as homeless.
    A broader definition of homelessness would accurately 
reflect homelessness in Alabama and be more inclusive of 
victims of domestic violence and people in rural areas.
    Currently HUD sets aside at least 30 percent of funds for 
permanent housing for single adults with disabilities and 
awards points to continuum of care applications based on HUD 
priorities, including that of serving chronically homeless 
individuals. This takes decisionmaking away from the local 
service providers and local communities who we believe are best 
equipped to analyze the needs of homeless individuals and to 
develop effective responses.
    In our experience, this top-down decisionmaking can lead to 
unintended results. The Coalition Against Domestic Violence 
took the lead in organizing a balance of State continuum of 
care incorporating most of the rural areas and small towns in 
our State. None of our proposals for services have thus far 
been funded, except for a small grant to develop a Homeless 
Management Information System, or HMIS. So we are in the 
peculiar position of developing an HMIS system for a region 
with no homeless assistance grantees and, therefore, no 
homeless individuals to include in the system.
    As a result of the Chronic Homeless Initiative and the 30-
percent set-aside, local domestic violence programs in at least 
23 States have lost funding or are being told that they will 
soon lose funding because they do not serve the chronically 
homeless. The funding situation is much worse in rural areas 
because of pro rata share and emphasis on chronic homeless have 
heavily favored urban areas. Every community has different 
groups who are very difficult to serve, and prioritizing one 
over the other at the Federal level does little to help each 
State address their unique homeless population.
    To ensure that victims of domestic violence, children, and 
homeless individuals in rural areas are served, reauthorization 
of McKinney-Vento should return decisionmaking to local 
communities. This can be accomplished by significantly adapting 
or reducing the 30-percent set-aside for permanent housing for 
disabled individuals and by removing bonus points that 
prioritize chronic homelessness.
    Senate 1518 takes several very important steps toward a 
balance by expanding the 30-percent set-aside and the 
definition of chronically homeless to include families headed 
by adults with disabilities, and we applaud this change. We 
also believe that Senate 1518 should further expand these 
categories to include families with children who are disabled 
as well as disabled adults. If combined with a broader 
definition of homelessness, these programs would be much more 
responsive to the needs of communities, including our rural 
areas.
    Thank you for your consideration and your support for 
domestic violence victims.
    Senator Reed. Thank you very much.
    Mr. Loza, please.

     STATEMENT OF MOISES LOZA, EXECUTIVE DIRECTOR, HOUSING 
                       ASSISTANCE COUNCIL

    Mr. Loza. Thank you, Chairman Reed, Ranking Member Shelby, 
and Senator Allard. We thank you for inviting the Housing 
Assistance Council to offer testimony on Senate bill 1518, the 
Community Partnership to End Homelessness Act.
    My name is Moises Loza. I am the Director of the Housing 
Assistance Council, a national nonprofit dedicated to improving 
housing conditions for low-income rural Americans. I work like 
to thank you, Senator Reed, for your work to assist homeless 
people, and I also want to thank Senator Shelby for his efforts 
on behalf of the rural homeless.
    Although homelessness is widely viewed as an urban problem, 
rural individuals and families also experience both literal 
homelessness and extremely precarious housing situations. 
Literal homelessness--living on the street or in a shelter--is 
less common in rural areas. Homeless people in rural areas 
typically experience precarious housing conditions, moving from 
one substandard, overcrowded, or cost-burdened situation to 
another, often doubling or tripling up with friends or 
relatives.
    HAC analysis of the American Housing Survey data shows that 
over 6 million rural households experience a precarious housing 
condition, threatening their ability to achieve housing 
stability, and placing them at risk of homelessness.
    The ability of rural organizations to meet the needs of 
homeless persons has often been hindered by geographic, 
programmatic, and organizational capacity constraints. Several 
structural issues limit the creation of these resources in 
rural areas. Such issues include a lack of community awareness 
and support, a lack of access to services, difficulties in 
assessing need, and definitions that limit resources to those 
who are literally homeless.
    For these reasons, using Federal resources can be difficult 
in rural areas. Providers in rural communities have a strong 
incentive to emphasize homelessness prevention and permanent 
rehousing options. They depend on the best resources available, 
including Federal programs created by the McKinney-Vento Act. 
The changes proposed in Senate bill 1518 will improve rural 
access to essential homelessness assistance resources.
    Senate bill 1518 demonstrates a critical and innovative 
thinking about the challenges facing homeless persons and 
providers and recognizes the realities of homelessness in rural 
communities.
    Currently, continuum of care funds cannot be used for 
prevention activities, but Senate bill 1518 lifts this barrier 
for rural communities, and we applaud this change.
    The Community Partnership would also consolidate HUD's 
three main competitive homelessness programs to reduce the 
administrative burden on communities caused by varying program 
requirements. Such a consolidation will benefit groups like the 
Tennessee Valley Family Services, a nonprofit organization in 
Guntersville, Alabama. Tennessee Valley serves the needs of 
runaway youth, other homeless youth, and children in need of 
supervision. Streamlining the application process for its 
varied programs would enable Tennessee Valley staff to spend 
more time delivering aid and less time on administrative work.
    HAC supports the Rural Housing Stability Assistance Program 
because it will help local rural organizations address and 
prevent homelessness in their communities. The program uses the 
CDBG formula for distribution of funds, and as has been said 
before, we as rural advocates are obviously interested in the 
fair share going to rural communities.
    The value of flexible targeting allowed in the Rural 
Housing Stability Assistance Program is demonstrated by the 
work of Bishop Sheen Ecumenical Housing Foundation, a HAC 
partner and faith-based organization that serves 13 rural 
counties in New York.
    A striking story illuminates the work of Sheen Housing that 
help keep low-income persons away from literal homelessness. In 
this situation, Mr. C, his wife, and his 17-year-old son all 
live in housing where the ceiling was literally about to 
collapse. Sheen Housing made the needed health and safety 
repairs, including replacing the ceiling, repairing the roof, 
and painting the interior. Mr. and Mrs. C and their son are now 
able to remain in their home.
    HAC also supports the simplified application and capacity-
building portions of the Rural Housing Stability Assistance 
Program. Across the Nation, rural residents need housing and 
services. Yet many of these residents are still crowded into 
others' homes, at risk of injury in substandard housing, 
unsheltered, or still paying more than they can afford, simply 
because community-based and faith-based organizations in their 
areas do not have the knowledge or funding to help them.
    As an intermediary organization for 36 years, we have 
repeatedly said that strengthening the capabilities of local 
rural housing organizations can provide immense benefits to 
rural communities. The simplified application will help rural 
communities access much-needed resources. Capacity-building 
funds will provide investments that enable local rural 
organizations to meet the needs of homeless and precariously 
housed people.
    In short, the Rural Housing Stability Assistance Program is 
sensitive to the needs of rural communities and presents 
crucial, flexible resources for rural organizations providing 
homeless assistance programs to their communities.
    Senator Reed. Thank you very much, Mr. Loza.
    I would note that a vote has just been called, and we have 
about 12 or so minutes left to go. So I think the best thing to 
do would be to stand in recess for a moment, allow us to vote, 
and we can return and you can complete your testimony without 
interruption, and then we will get to the questioning. Thank 
you for your forbearance.
    The Committee will stand in recess until we return from the 
vote.
    [Recess.]
    Senator Reed. Let me call the hearing to order again. When 
I left, the lights were brighter and the music was not playing.
    [Laughter.]
    So I am glad you had the opportunity to relax.
    Again, I apologize, but the one unavoidable obligation is 
going to vote, and we had to do that.
    I believe we are up to Ms. Glassman. Please.

  STATEMENT OF LINDA GLASSMAN, SECRETARY, BOARD OF DIRECTORS, 
                NATIONAL AIDS HOUSING COALITION

    Ms. Glassman. Thank you, Senator Reed, for allowing us to 
give testimony on this most important issue. My name is Linda 
Glassman. I am here today representing the National AIDS 
Housing Coalition, which is a 13-year-old national not-for-
profit housing organization working to expand resources for 
housing persons with AIDS in communities nationwide. I am also 
the Executive Director of CARES, a not-for-profit agency in 
Albany, New York, which not only provides housing for persons 
with HIV/AIDS but also coordinates the McKinney-Vento Act-
funded Continuum of Care process in four counties in 
northeastern New York and provides support in understanding the 
Continuum of Care process to a variety of communities, both 
urban and rural, throughout upstate New York.
    Consolidating and streamlining the Federal low-income 
housing programs that respond to homelessness is very important 
to the National AIDS Housing Coalition because of the 
tremendous impact that homelessness has on the health and 
longevity of persons living with AIDS. A number of research 
studies have now demonstrated that homelessness is a major risk 
factor for AIDS, and HIV is a major risk factor for 
homelessness.
    The National AIDS Housing Coalition's Research Summit 
initiative provides a regular forum for researchers, housing 
and homeless policy experts, residents of AIDS housing programs 
and their advocates to explore the role that stable housing 
plays in HIV prevention, care, and treatment. One of the 
Research Summit's most important documented findings is that up 
to 60 percent of persons living with HIV/AIDS have had an 
experience of homelessness or housing instability at some time 
during their illness. As a result of this and other compelling 
research findings, NAHC has adopted a policy imperative making 
housing homeless persons with HIV/AIDS a top prevention 
priority.
    Because of the documented importance of providing adequate, 
affordable housing for persons living with HIV/AIDS, the 
National AIDS Housing Coalition has strongly supported the 
Housing for Persons with AIDS--HOPWA--program. However, we 
estimate that the HOPWA program currently falls $168 million 
short of meeting the national need for housing for persons 
living with HIV/AIDS and their families. In many communities, 
such as my own in upstate New York, more homeless persons with 
HIV/AIDS are assisted in acquiring and maintaining stable 
housing with McKinney-Vento Act dollars than with HOPWA 
funding. Therefore, reauthorization of the McKinney-Vento Act 
has a direct impact on the provision of transitional and 
permanent supportive housing for homeless persons with HIV/
AIDS, along with homeless persons with other disabilities.
    The National AIDS Housing Coalition strongly supports the 
Community Partnership to End Homelessness Act of 2007. The 
bill's sponsors have given careful consideration to what has 
worked well in the existing legislation and have been able to 
retain that, while making needed changes to parts of the 
legislation in order to better facilitate local efforts to end 
homelessness. The National AIDS Housing Coalition is supportive 
of the Community Partnership to End Homelessness Act's focus on 
community collaboration, its flexibility in the types of 
entities that can serve as a collaborative applicant, and its 
creation of a standard matching requirement.
    There are three particularly positive aspects of the 
legislation that we would also like to highlight. The first of 
these is the increased emphasis on prevention and rehousing 
activities. It makes absolute sense to intervene before people 
become homeless, providing them with the temporary support 
needed to make a rent payment or cover the cost of utility 
bills, rather than to wait until they become homeless to serve 
them. It also makes sense to offer rehousing assistance to 
individuals and families who have already become homeless but 
who are not in need of ongoing supportive services. The 
provision of short- and medium-term rental assistance would 
enable these individuals and families to be stably housed while 
awaiting permanent housing provided by local housing 
authorities, Section 8 providers, and other mainstream housing 
assistance programs.
    Second, we would like to convey the National AIDS Housing 
Coalition's support for the proposed Rural Housing Stability 
Program. The National AIDS Housing Coalition includes members 
from rural communities that, while not having the same sort of 
visible homeless--and I think that is a term we have all used 
here--that the big cities have, have very high levels of 
poverty and homelessness, especially family homelessness. I 
work in a number of these rural communities in upstate New York 
and know firsthand just how difficult it is to make meaningful 
use of McKinney-Vento Act funding, especially with all the 
changes that have happened in the last few years.
    I know that for many of you the name ``New York'' does not 
exactly conjure up images of rural farmland and craggy mountain 
peaks, but that is exactly the topography of much of upstate 
New York. Many of the communities in which I work are located 
in the Adirondack Park in which there is much poverty, 
insufficient and poor-quality housing stock, little 
governmental infrastructure, and only a smattering of not-for-
profit agencies. These communities, which can span several 
counties and 100 or more miles, do not have the capacity to 
meet all of the requirements of the continuum of care process, 
including holding monthly meetings of all providers, conducting 
point-in-time counts of homeless individuals and families--
especially since these are mandated to be held in the last week 
of January, when weather conditions can be prohibitive--and 
they may not have the resources needed to pay for costly data 
collection software. Because they have few major streets, these 
communities do not have any ``street'' homelessness; rather, 
homeless persons remain hidden from view in encampments, 
unheated barns, and other places not suitable for habitation. 
Because there are no emergency shelters, homeless individuals 
and families are housed by friends, their extended families, 
and by compassionate members of local religious congregations 
and other local residents, thereby disqualifying them from 
being considered ``homeless'' under the existing McKinney-Vento 
Act definition.
    My own experience is echoed by that of other National AIDS 
Housing Coalition board members who serve rural communities in 
Alabama, Missouri, Ohio, and even Hawaii. It is clear to us 
that these rural communities have different, not lesser, needs 
than their urban and suburban neighbors. The National AIDS 
Housing Coalition strongly supports the creation of the 
proposed Rural Housing Stability Program, which will provide 
rural communities with the latitude and flexibility needed to 
address their unique challenges. We also hope that sufficient 
funding is allocated to make this program a reality.
    I would like to add that I say this as the daughter of a 
man who spent a number of years in his childhood living in an 
abandoned chicken coop because his family had no housing. And I 
know that homelessness does not look the same as it does on the 
streets of Washington, D.C., and it does not look at the same 
as when I was working in Times Square in the late 1990's with 
homeless youth, well before Times Square was Disney-fied. But 
it is homelessness just the same, and I really applaud you for 
addressing it and for allocating appropriate resources toward 
it.
    The third aspect of the Community Partnership to End 
Homelessness Act of which we are particularly supportive is the 
shifting of renewal funding for permanent supportive housing 
programs to the Section 8 account. These programs are indeed 
meant to house people permanently, and it makes sense to renew 
their funding out of an account that is set aside for permanent 
housing. Even more importantly, this would free up McKinney-
Vento Act money to be used to serve additional individuals and 
families rather than having most of it taken up with funding 
renewals. Certainly, the extent of the need for additional 
homeless housing resources more than justifies this shift.
    Having established our strong support for the Community 
Partnership to End Homelessness Act of 2007, and having focused 
on three particularly positive components of the legislation, 
we would like to offer just one suggestion, which is to 
consider making a modification of the definition of 
homelessness used in the legislation. We understand the need to 
use this funding to serve individuals and families who are most 
in need, but members of our coalition have encountered a small 
percentage of truly homeless persons who have not been eligible 
for permanent housing under the McKinney-Vento Act because they 
are unable to access emergency shelters, one of the only two 
means of qualifying as homeless for the purposes of accessing 
permanent supportive housing according to the existing Act. The 
National AIDS Housing Coalition respectfully requests that the 
bill's sponsors consider as homeless the following: one, people 
who are temporarily staying with friends or family who have 
stayed in at least three different households in the last year 
because they did not have the resources to rent a housing unit 
consistent with Federal housing quality standards; and/or, two, 
homeless people who are temporarily staying with family or 
friends whose presence in household in which they are staying 
causes the leaseholder to be in violation of the lease, such as 
in public housing or in the Section 8 program.
    We ask for this consideration because, in areas where there 
are no emergency shelters, the two mentioned circumstances are 
the two housing options most available to homeless individuals 
and families. We want to be clear that we are not asking for a 
wide expansion of the definition of homelessness, but just for 
geographic parity for those communities in which emergency 
shelter is not obtainable.
    We would also like to respectfully request that this 
definition be placed in the record.
    Senator Reed. Thank you. Could I ask you to conclude?
    Ms. Glassman. I am just about to. OK.
    Having made that request, we just want to express our 
strong support for the act, and thank you very much for letting 
us testify.
    Senator Reed. Thank you very much.
    Ms. Roman, your testimony, please.

  STATEMENT OF NAN ROMAN, PRESIDENT, NATIONAL ALLIANCE TO END 
                          HOMELESSNESS

    Ms. Roman. Thank you so much. First, I just want to thank 
you, Chairman Reed, so much for the leadership you have shown 
on this, and Senator Allard as well. I am sorry he is not here 
so I could thank him myself. We appreciate very much all you 
have done to try to move this forward and help us make progress 
over the years. We are tremendously grateful for that.
    I also want to thank you for inviting me to come here to 
testify on behalf of the National Alliance to End Homelessness 
Board of Directors. This really is, as everyone has said, a 
terribly important subject because the HUD McKinney-Vento Act 
funds provide resources to meet the needs of 1 percent of all 
Americans who become homeless every year and 10 percent of all 
poor Americans who experience homelessness every year. So it is 
a problem that is very wide-ranging.
    The funds are essential to meet the emergency needs of a 
diverse group of people, which everyone has described--
families, veterans, people with domestic violence issues. So 
the needs are very diverse, and their emergency needs need to 
be met. But the solutions to homelessness are also importantly 
funded out of this; as well, the process of allocating these 
funds really has become the locus over time of community 
discussions to try to make progress. So it is pulling a lot of 
other resources and agencies into the discussion, and I think 
that is an important thing as well.
    And most recently, it has played a key role in the 
implementation of these 10-year plans. Both Mayor Franklin and 
Mayor Fenty talked about the plans to end homelessness they had 
in their communities. A major resource that is used to 
implement those plans, which about 300 different communities 
are now working on, and has really--that planning effort really 
has changed the discussion around homelessness in a lot of 
places. These are the funds that go to do that.
    So we believe that the Community Partnership to End 
Homelessness Act does a really good job of codifying existing 
practice that is working, while increasing the focus on 
outcomes and enhancing community efforts with some new 
initiatives. And I will just point out a couple of the 
provisions that seem to us to be particular important.
    First, the needs of families, homeless families, require 
more attention. Your bill contains a host of provisions that 
will place attention squarely on solutions to family 
homelessness, including homelessness of families, as has been 
pointed out, who have domestic violence histories and 
experiences.
    Among the most significant things I think the bill does is 
provide the prevention funding that is available to families, 
increase the amount of resources available for housing 
services, provide some permanent housing for non-disabled 
families for the first time, and including families in the 
definition of chronic homelessness, which I think is an 
important thing. We can end family homelessness. We are 
learning a lot about how to do that, and I think this bill will 
help us move forward.
    A second thing is that prevention does make sense. But 
prevention efforts really do have to be carefully designed and 
targeted. There is a huge group of people in this country, 
unfortunately, with critical housing problems who could be 
candidates for prevention assistance. For example, using 
American Community Survey data, we estimate that there are 
between 2.5 and 10.5 million people who are doubled up for 
economic reasons. That is about somewhere between 4 and 15 
times as many people as we currently define as homeless, and we 
are not even meeting the shelter needs of half of the 750,000 
people we already define as homeless.
    Further, there are 13.4 million people who have worst-case 
housing needs, another group of people likely to be the target 
of prevention efforts. That is 19 times more people than are 
currently homeless.
    The McKinney-Vento Act programs cannot address the needs of 
everybody in the country with serious housing problems, at 
least not without significant and commensurate increases in 
funding, and even in that case I am not sure it would be a good 
idea to run everybody who has housing problems through the 
homeless system.
    But having said that, prevention does make sense. It can 
avert tremendous human suffering. It can avoid expensive 
remedial interventions. And your bill I think takes a sensible 
and much needed approach, which is to create a modest but 
significant pool of funds that communities can use 
strategically for people who are really at high risk of 
homelessness to avoid them falling over the brink into 
homelessness, including many people who are doubled up.
    So I think we can address the needs of vulnerable people 
without taking on the entire affordable housing crisis into the 
homeless system, and I think your initiative is very important 
in that respect.
    And the third thing which everyone has talked about, which 
I think is great, is the rural approach to rural communities. 
The problem of homelessness is different in rural communities. 
The current programs do not match up very well with the needs 
in rural communities. And rural communities have been 
disadvantaged in the competition because of their lack of 
capacity, and this is a shame because I actually think rural 
communities probably have more potential to end homelessness 
than urban communities. They have many fewer homeless people, 
and they have the mainstream systems more involved. They do not 
have this in-between big homeless system, which can be an 
advantage. So I think the changes that you propose in your bill 
really level the playing field with respect to the competition 
for funds, which is probably the main way rural communities are 
going to get more resources, and they give them more 
flexibility to address the problem as they see it.
    So I think all of the things that have been raised, issues 
that have been raised about rural communities, the bill really 
addresses that, and I thank you for that.
    So, in summary, the National Alliance to End Homelessness 
strongly supports the Community Partnership to End Homelessness 
Act. The act contains significant new and much needed 
initiatives on prevention and rural homelessness. It retains 
the commitment to meeting the needs of chronically homeless 
people, and I just want to mention that there are many 
veterans--this came up, and no one has really talked about 
that. But there are many veterans who fall into the chronic 
population, so that is important as well.
    It continues to target assistance to chronically homeless 
people and disabled people, including families, not only 
individuals. And it rightly expands the chronic initiative to 
include families. It additionally has a significant new focus 
on families, which is great.
    I think it does not pretend to be able to do everything 
that can be done about people with affordable housing problems. 
But it does really increase the focus on outcomes and move us 
forward and provide more flexibility, all of which people have 
said was needed.
    So we are very grateful for all you have done to move it 
forward. At the National Alliance to End Homelessness, we judge 
everything by one thing, which is whether it helps us end 
homelessness in the Nation, and we think that the act meets 
that test. So we are happy to be in support of it here today.
    Thank you so much.
    Senator Reed. Thank you very much. I want to thank all of 
the panelists for their excellent testimony, and we have an 
opportunity to ask some questions without being diverted by my 
colleagues.
    [Laughter.]
    Throughout the testimony of all the panelists was the issue 
of definition, and we face a very practical problem. We have a 
finite resource, about $1.8 billion, and if we expand the 
definition, then logically we expand the number of people. And 
there is a fear that we lose the focus and the dollars that 
could be targeted adequately to address different populations 
of homeless.
    One of the aspects of the bill--and Ms. Roman talked about 
it--is this notion of prevention money with some flexibility to 
perhaps go into these populations which are technically not in 
the definition of homelessness, but they would fall in the 
definition of people who could be homeless and, therefore, the 
prevention money could work.
    I wonder if you might comment in terms of those two 
sections together in terms of this issue of definition, and I 
will ask everybody because I think your insights will be 
valuable, particularly those who come from areas that are not 
big urban centers but have rural populations.
    Ms. Roman. Well, I appreciate the focus of the bill on 
outcomes, and I think we have heard here today that trying to 
achieve outcomes is important. So, you know, if we were to 
expand the population of people who are eligible for homeless 
assistance by somewhere between 4 and 15 times, which is 
essentially the size of the doubled-up--there is no definition 
of doubled-up so that is why the range is so large. But at the 
very least, we would have to multiply the amount of money that 
comes into homeless assistance by 4 to 15 times, and I think we 
would also have to relook at the eligible activities because--
focus more on rehousing. I think what you do with the 
prevention fund is really allow people the flexibility to 
address this on a case-by-case basis for people who really are 
on the brink. There are a lot of people who are doubled up, 
which has been the proposed change, who are very stably housed. 
You know, it may not be the best situation in the world, but 
they are stable in their housing. They are not about to become 
homeless. But there are a lot of people who are, and I think 
Ms. Glassman raised the issue of people who really are couch-
surfing. I would call those people homeless as well, or people 
who are about to become homeless, and I think your pool allows, 
you know, a strategic use of funds to address that.
    We do not want to also pull people into the homeless system 
to get housing assistance and services. We want to help them 
stay where they are.
    Senator Reed. Well, one thing that we all understand, which 
is unstated, is that this is one aspect of an affordability 
crisis that transcends the whole housing market, and 
unfortunately, that crisis is working its way up the income 
ranks.
    But having said that, Ms. Glassman, your comments, too. And 
we will take note of your suggestions, which were very 
thoughtful.
    Ms. Glassman. Well, there are two things. For me, many of 
the people with whom I work are the same people--and I worked 
in L.A. and New York--who would qualify for the program because 
they went through emergency shelter, but because one simply 
does not exist, it is the same mentally ill person, it is the 
same person with chronic substance abuse, it is the same person 
with HIV. There just is not the entry place into the system. So 
for me, for that small population, I would like you to give 
other consideration.
    The other thing is I would like to get more clarity about 
that whole notion of medium-term housing in prevention, because 
it looks as if--we all know permanent housing is the solution. 
If the medium-term housing could last long enough until people 
could get into a Section 8 program or into some other, more 
stable housing, it would be very helpful. The problem is, as 
you well know, the wait to do that is very long. But it does 
not make sense to me to pay first and last month's rent for 
somebody who then is going to be homeless 2 months afterwards 
because there is no housing stability in the middle of that. So 
I would like to give some consideration to that.
    Senator Reed. Thank you.
    Mr. Loza, again, from your perspective--and also this is an 
opportunity--I will announce there is another vote that has 
been called, but this is another opportunity to make some 
comments for everyone that you had not yet expressed for the 
record. Mr. Loza.
    Mr. Loza. Thank you, Senator Reed. We appreciate the 
challenge of coming up with a definition that works. For a 
variety of reasons, getting all the different views together is 
difficult, and looking at resources also becomes difficult.
    I think Senator Menendez was right. This has to be seen as 
part of a much broader issue. We have affordability. We have 
the need for new production. We have the need for bettering 
substandard housing. And what I think you are trying to do with 
this reform with Senate bill 1518 is really to cover that part 
that maybe is part of a larger one as opposed to trying to deal 
with pieces of different parts.
    We are very grateful for a couple of things. One is that 
the recognition that rural areas need to be addressed 
differently is clearly evident in the bill, and we are very 
grateful about that. And the other thing is the openness of 
your office and of this Committee to really discuss, you know, 
how do we get to those points where we can come to agreement. 
And I think that is what it is going to take to sort of reach 
the point where not everyone will be satisfied, but at least 
everyone has an opportunity to offer important input.
    Senator Reed. Well, thank you, Mr. Loza. In that regard, 
thank you for helping us, all of you participating. Again, much 
of the credit goes to the staff, not to the principals, and I 
will once again thank them.
    One other point is that we are trying to work through this 
government-sponsored enterprise reform bill, and within that 
bill in the House, there is a housing trust fund component, for 
lack of a better term, which we hope can generate up to $500 to 
$800 million for the issue of production for affordable housing 
that will take the pressure off a little bit the crisis that 
many people face today. But thank you for those comments.
    Ms. Gundlach.
    Ms. Gundlach. Yes, Senator Reed. I want to, first of all, 
second what people have said about the real improvements we see 
in your bill and to express our appreciation. I think that the 
emphasis on rural issues, emphasis on prevention issues, are 
going to go a long way to alleviating some of our concerns.
    I will say that while I am cognizant of the concerns of 
dumping another 4 to 15 million people into the definition of 
homelessness, I do think it is exactly that process of 
identifying what the most critical need is that the whole 
continuum of care system was created to address. And, again, I 
go back to the issue of flexibility in local communities, that 
whether we have 100 or 500 homeless individuals in a community, 
if we can only serve 20, that local community has got to decide 
where the greatest priority is, and that is done through that 
continuum of care process.
    And so my biggest concern is not so much whether we define 
people who are doubled up broadly or narrowly. I think we do 
need some definition for couch-surfing certainly as being 
homeless. But I think that we really need the flexibility to 
those local communities to look at the broad array of homeless 
needs and homeless people in their community and decide what 
population needs the most targeting and what services need to 
be offered.
    And so I think that counting the people is not as big an 
issue as deciding what we do with them, and that is really the 
job of the local community.
    Senator Reed. Thank you.
    Mr. Pendleton, please.
    Mr. Pendleton. Yes. Eleven percent of the homeless people 
in Utah are in the rural area because they basically move to 
the Wasatch Front where it is very urban. With the changes in 
the flexibility and increase in the rural emphasis, it will 
give us the opportunity to work in the community where they 
live and prevent them from becoming homeless and moving to the 
Wasatch Front, to the urban area. So that will be very helpful 
for us because then they can stay in their community where they 
can get support from their family members.
    So that is where we see a great opportunity for us, is to 
deal with the homelessness or near-homelessness in the rural 
areas. So we think this is a good move.
    Senator Reed. Well, this has been very useful for us, and I 
will add all of you have, I think, been very active in 
contributing through your national organizations and personally 
to the preparation of this legislation, and it benefits 
dramatically from your input. I thank you for that.
    This is, as Allen Ludden once said, ``a toss-up question,'' 
and I think we are all old enough to remember Allen Ludden--at 
least the panelists. Any final comments? I have 4 or 5 minutes 
before I have to run out of here and go vote, but any final 
comments? Ms. Roman.
    Ms. Roman. Well, I would just say I just want to concur 
that despite the fact that homeless people do need services, it 
is a housing-driven problem. And so we appreciate the efforts 
of the Committee to address that. That ultimately is what is 
going to solve it moving ahead. And, again, just to thank you 
so much for your leadership on this issue.
    Senator Reed. Well, I think also Senator Allard has been a 
colleague and friend doing this, and we have switched off as 
Chair and Ranking Member and Chair and Ranking Member 
seamlessly. So it is truly a joint effort. I know your 
commendation is to him also, and I would join you in doing 
that.
    Thank you all very much. We will keep the record open for 
about a week or so, 7 days. You might receive requests for 
written responses. I would hope you would respond as promptly 
as possible.
    Thank you again, and there being no further business, the 
hearing is adjourned.
    [Whereupon, at 12:59 p.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  RESPONSE TO WRITTEN QUESTIONS OF SENATOR CRAPO FROM ROY A. 
                            BERNARDI

Q.1. How does S. 1518 and the Administration's proposal 
guarantee that federal dollars will not be disproportionately 
allocated to larger urban areas where organizational capacity 
offers a significant competitive advantage over rural 
communities? For such a critical resource in our state, how is 
Idaho's current funding level protected against future erosion 
under the competitive allocation process?

A.1. In 2006, the State of Idaho received 99% of the funds 
applied for in the Continuum of Care (CoC) funding competition. 
The Idaho Balance of State, which represents the entire state 
other than Boise, scored 92.5 out of 100 possible points and 
had all of its projects funded. With a top national score of 95 
points, the Idaho Balance of State showed that a rural CoC can 
be a very strong performer in the funding competition.

Reed/Allard Bill, S. 1518, Community Partnership to End Homelessness 
        Act of 2007

    A significant aspect of the Reed bill is the establishment 
of a separate program for rural communities that would take 
them out of direct competition with well established urban CoCs 
while retaining their respective pro-rata need. At Section 
404(a), the Reed bill provides rural CoCs the ability to 
receive technical assistance for private non-profit 
organizations and other nongovernmental entities, States, 
metropolitan cities, urban counties, and counties that are not 
urban counties that are potential project sponsors, in order to 
implement effective planning processes for preventing and 
ending homelessness, to optimize self-sufficiency among 
homeless individuals and to improve their capacity to become 
project sponsors. This assistance will enhance the ability of 
rural CoCs to compete in the area of organizational capacity 
amongst other rural CoCs if they choose to apply under the 
Rural Housing Stability Assistance Program, or with any other 
CoC if they choose to apply under the Community Homeless 
Assistance Program.

Administration Bill, Homeless Assistance Consolidation Act of 2007

    The Administration's bill at Section 423(a)(8) adds 
technical assistance as a new eligible activity which will 
allow a CoC board to obtain training designed to increase its 
capacity to perform its function under the subtitle, including 
evidence-based practices. Like the Reed bill, this enhancement 
to the current list of eligible activities will benefit 
communities, including those in rural areas, which currently 
lack the organizational capacity to be competitive in the 
funding competition. To accommodate communities that still have 
difficulty obtaining funds competitively, the Administration 
intends to continue the current policy of establishing a CoC's 
baseline of funding at the higher of the pro-rata need or their 
total 1-year renewal amount. This would continue to ensure that 
lower-scoring renewal requests receive funding for at least 1 
year.
                                ------                                


  RESPONSE TO WRITTEN QUESTIONS OF SENATOR DODD FROM LLOYD S. 
                           PENDLETON

Q.1. How well do we believe the CDBG measures either the 
incidence or severity of homelessness across communities?

A.1. In comparing the present CDBG formulas for states 
(population at either 20 or 25%, poverty at either 30 or 50%, 
pre-1940 housing at 50% or Overcrowding at 25%) with the point-
in-time counts and the HMIS reported homeless, we see no 
significant relationship in the incidence or severity of 
homelessness. Even though the point-in-time counts are 
improving, especially with the recently implemented HMIS, the 
numbers are still soft and would create challenges in 
allocating funding for the homeless.

Q.2. Briefly comment on whether Congress should be setting up 
set-asides for specific homeless populations or whether local 
communities should be free to determine their own needs and 
priorities?

A.2. Because of the significant difference in Utah with a 
fairly urban area where 80% of the State's 2.6 million 
population live along the Wasatch Front (a 100 mile strip 5 to 
15 miles wide) and the vast rural areas, basically, we believe 
the local communities should be allowed to determine and 
prioritize their needs. However, there may be one or two 
significant homeless programs, such as ``housing first'' for 
the chronically homeless, that would benefit from a set aside.
                                ------                                


   RESPONSE TO WRITTEN QUESTIONS OF SENATOR DODD FROM LINDA 
                            GLASSMAN

Q.1. HUD uses the Community Development Block Grant (DCBG) 
formula to determine the allocation of its competitive 
homelessness assistance grant. As we are all aware, there is no 
basis in either statute or regulation for using the CDBG grant 
formula in this manner.
    I would like you to comment on how well you believe the 
CDBG measures either the incidence or severity of homelessness 
among communities?

A.1. Until the Homelessness Management Information System 
(HMIS) becomes fully operational in communities nationwide, the 
Community Development Block Grant formula is the best available 
proxy for determining the incidence and severeity of 
homelessness.

Q.2. One thing, I believe that we have heard from many of 
today's witnesses, is that the nature of homelessness differs 
greatly by community. I want to ask if you can briefly comment 
on whether Congress should be setting up set-aside for specific 
homeless populations or whether local communities should be 
free to determine their own needs and priorities.

A.2. In order to address homelessness nationwide, research 
indicates that some emphasis on ``chronic'' homelessness is 
warranted. S. 1518 is crafted with considerable latitude to 
focus on other homeless populations, especially after the 
demonstrated needs of chronically homeless people have been 
met. In addition, the legislation allows rural areas to 
identify and address their specific needs.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
